APPENDIX 1

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

975 F.3d 1145
United States Court of Appeals, Eleventh Circuit.
Michael William LEDFORD, Petitioner - Appellant,
v.
WARDEN, GEORGIA DIAGNOSTIC
PRISON, Respondent - Appellee.
No. 19-11090
|
(September 15, 2020)
Synopsis
Background: After convictions for malice murder,
aggravated battery, and related crimes, and sentence of
death, were affirmed on direct appeal,
289 Ga. 70, 709
S.E.2d 239, and state habeas relief was denied, prisoner filed
federal petition for writ of habeas corpus. The United States
District Court for the Northern District of Georgia, No. 4:17cv-00211-MHC, denied petition, and prisoner appealed.

Holdings: The Court of Appeals, Newsom, Circuit Judge,
held that:

performance and that prisoner was prejudiced by such
deficiency was insufficient to demonstrate cause for
procedural default; and
[6] prisoner was not entitled to evidentiary hearing on
procedurally defaulted claim.
Affirmed.
Procedural Posture(s): Appellate Review; Post-Conviction
Review.
West Headnotes (30)
[1]

[2]

[5] prisoner's general, conclusory assertions that appellate
counsel's failure to argue juror misconduct was deficient

Habeas Corpus
error

Direct review; appeal or

Defendant's claim that prosecutor's use of nine
of twelve peremptory strikes against female
prospective jurors, who made up 42% of venire,
was discriminatory on basis of gender, in trial for
malice murder, aggravated battery, and related
crimes, was properly exhausted, under Georgia
law, for purposes of federal habeas review, where
claim was raised and addressed on direct appeal.

[2] prisoner failed to make out prima facie case of gender
discrimination with respect to State's use of peremptory
strikes against female prospective jurors;

[4] claim that counsel were ineffective for failure to raise
claim on direct appeal that juror lied during voir dire when he
stated that he would consider all alternatives to punishment,
i.e., death, life without parole, and life, if prisoner was
convicted was procedurally barred, on federal habeas review;

Matters determined on

In Georgia, an issue actually litigated and
decided on direct appeal is precluded from being
relitigated on state habeas corpus, at least absent
compelling reasons, such as a miscarriage of
justice.

[1] claim that prosecutor's use of nine of twelve peremptory
strikes against female prospective jurors was discriminatory
on basis of gender was properly exhausted, under Georgia
law;

[3] counsel's presentation of evidence regarding antisocial
personality disorder (ASPD) and psychopathy as part of
theory of defense, during penalty phase of trial, was matter of
reasonable trial strategy;

Habeas Corpus
appeal

[3]

Habeas Corpus
questions

Federal or constitutional

A state court decision is “contrary to clearly
established federal law,” as a ground for
obtaining federal habeas relief, if the state
court arrives at a conclusion opposite to that
reached by the Supreme Court on a question
of law, or if the state court decides a case
differently than the Supreme Court has on a
set of materially indistinguishable facts.
U.S.C.A. § 2254(d).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

28

1

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

[4]

Habeas Corpus
Federal Review of State
or Territorial Cases

[8]

28 U.S.C.A. § 2254(d).
[9]

[5]

Constitutional Law

Equal protection

Habeas Corpus
Federal Review of State
or Territorial Cases

Constitutional Law
challenges

Peremptory

When a state prisoner applies for federal
habeas relief based on a claim that the
state court decision being challenged involves
an unreasonable application of federal law,
“unreasonable” means more than simply
incorrect; rather, the state court's application
of federal law is “unreasonable” only if no
fairminded jurist could agree with the state

A well-established burden-shifting framework
governs claims that the prosecution exercised
peremptory strikes in a discriminatory manner, in
violation of the Equal Protection Clause: first, the
defendant must make out a prima facie case by
showing that the totality of the relevant facts give
rise to an inference of discriminatory purpose
in the exercise of peremptory strikes; second,
once the defendant has made out a prima facie
case, the burden shifts to the State to explain
adequately the exclusion by offering permissible
non-discriminatory/neutral justifications for the
strikes; and third, if a non-discriminatory/neutral
explanation is tendered, the trial court must then
decide whether the opponent of the strike has
proved purposeful discrimination. U.S. Const.
Amend. 14.

court's determination or conclusion.
U.S.C.A. § 2254(d).

[6]

28

Habeas Corpus
Federal Review of State
or Territorial Cases
The requirement for an applicant to obtain
federal habeas relief based on a claim that
the state court's decision being challenged
constituted an unreasonable application of
federal law, the standard for proving
“unreasonableness” is difficult to meet and
highly deferential, which demands that statecourt decisions be given the benefit of the doubt.
28 U.S.C.A. § 2254(d).

[7]

Juries

The Equal Protection Clause prohibits
discrimination in jury selection on the basis of
gender, or on the assumption that an individual
will be biased in a particular case for no reason
other than the fact that the person happens to be
a woman or happens to be a man. U.S. Const.
Amend. 14.

A state court decision involves an “unreasonable
application of federal law,” as the basis for
obtaining federal habeas relief, if the state
court identifies the correct governing legal
principle from the Supreme Court's decisions but
unreasonably applies that principle to the facts of
the prisoner's case.

Constitutional Law

Jury

Peremptory challenges

Ordinarily, parties may exercise their peremptory
challenges to remove from the venire any group
or class of individuals normally subject to
rational basis review, but they may not exercise
such strikes solely because of race or gender.

[10]

Constitutional Law
challenges
Jury

Peremptory

Peremptory challenges

Defendant failed to make out prima facie case
of gender discrimination with respect to State's
use of nine of twelve peremptory strikes against
women, in alleged violation of Equal Protection
Clause, in trial for malice murder, aggravated
battery, and related crimes, where he relied solely
on statistical disparities, specifically alleging
that females made up 15 of 36 prospective
jurors, or 42% of venire, that State used 75%
of its peremptory strikes against women, which
resulted in jury containing only two female jurors

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

(17%), he presented no additional facts, and State
accepted two women to sit on jury, plus two
female alternates. U.S. Const. Amend. 14.

[15]

Habeas Corpus
Adequacy and
Effectiveness of Counsel
Habeas Corpus

Counsel

When a habeas petitioner in state custody
[11]

Civil Rights
prisons

Criminal law enforcement;

Civil Rights
Evidence

Weight and Sufficiency of

raises a

the commands of
Strickland and the
Antiterrorism and Effective Death Penalty Act
(AEDPA) operate in tandem so that a federal
court's review of the state court's decision on
a claim of ineffective assistance of counsel is
doubly deferential, and thus, a federal court
will grant federal habeas relief only if the state
court unreasonably determined that trial counsel
performed reasonably—i.e., where there is no
possibility fair-minded jurists could disagree
that defense counsel acted outside the range of
professionally competent assistance. U.S. Const.

Not just any statistical disparities will suffice to
demonstrate a prima facie case of discrimination
in the exercise of peremptory strikes, in violation
of equal protection. U.S. Const. Amend. 14.

[12]

Jury

Peremptory challenges

An inference of discrimination in the exercise of
peremptory strikes is weakened where the State
accepts jurors in the allegedly targeted group.

[13]

Habeas Corpus

Counsel

On state prisoner's application for federal
habeas relief on claim that trial counsel was
ineffective during penalty phase of trial for
malice murder, because the Supreme Court of
Georgia summarily denied prisoner certificate of
probable cause on claim, federal court would
“look through” to state habeas court's order
denying claim to determine whether that court
unreasonably applied clearly established federal
law, under
Strickland, when it declined to
find that trial counsel rendered constitutionally
ineffective assistance. U.S. Const. Amend. 6;
28 U.S.C.A. § 2254(d).

[14]

Criminal Law
Deficient representation
and prejudice in general
Under the familiar
Strickland two-part test
governing a claim of ineffective assistance of
counsel, a defendant must show that counsel's
performance (1) fell below an objective standard
of reasonableness and (2) prejudiced the defense.
U.S. Const. Amend. 6.

Strickland claim in federal court,

Amend. 6;

[16]

28 U.S.C.A. § 2254(d).

Courts
Number of judges concurring in
opinion, and opinion by divided court
The Court of Appeals is bound to follow a prior
panel or en banc holding, except where that
holding has been overruled or undermined to the
point of abrogation by a subsequent en banc or
Supreme Court decision.

[17]

Criminal Law
sentencing phase

Presentation of evidence in

Trial counsel's presentation of evidence
regarding antisocial personality disorder (ASPD)
and psychopathy as part of theory of defense,
during penalty phase of trial for malice murder,
aggravated battery, and related crimes, was not
deficient performance, as required to support
claim of ineffective assistance of counsel; rather,
counsel's decision to present such evidence was
matter of trial strategy, as counsel could have
reasonably concluded that brain injury suffered
by defendant as innocent child, as alleged cause
of ASPD and psychopathy, might provide some
excuse that, in minds of jurors, might eliminate
defendant's culpability for crime, and that
evidence of abuse suffered by defendant during

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

childhood, by itself, would not sufficiently
explain why defendant committed heinous acts
that gave rise to charges and formed basis of
convictions. U.S. Const. Amend. 6.

[18]

to demonstrate cause to excuse a procedural
default for the failure to raise the claim before
the state court, in order to obtain federal habeas
review, he must show that he properly raised
the argument in state court, because ineffective
assistance of counsel is itself a constitutional
claim. U.S. Const. Amend. 6.

Habeas Corpus
Availability of Remedy
Despite Procedural Default or Want of
Exhaustion
Habeas Corpus
general

Cause and prejudice in

[22]

Habeas Corpus

Cause or Excuse

When a state prisoner seeks federal habeas
review of a procedurally defaulted claim that
was not exhausted before the state court, under
the “cause and prejudice” test, the prisoner must
demonstrate some objective factor external to the
defense that impeded his effort to raise the claim
properly in state court.

[20]

Habeas Corpus

[21]

Habeas Corpus
counsel

[23]

[24]

Exhaustion of State

Habeas Corpus
general

Cause and prejudice in

Because a cause and prejudice argument which is
not presented in state court is itself procedurally
defaulted, a state prisoner cannot raise it for the
first time on federal habeas review unless he
can show cause and prejudice for that particular
default as well.

Ineffectiveness or want of

Before a state prisoner can rely on an
allegation of ineffective assistance of counsel

Habeas Corpus
Remedies

General, conclusory statements are insufficient
to preserve a claim for federal habeas review.

Prejudice

To establish the “prejudice” prong of the cause
and prejudice test for a state prisoner to obtain
federal habeas review of a procedurally defaulted
claim that was not presented before the state
court, a petitioner must show that there is at least
a reasonable probability that the result of the
proceeding would have been different if he had
been allowed to raise the issue in state court.

Counsel

State prisoner's claim that counsel were
ineffective for failure to raise claim on direct
appeal that juror lied during voir dire when he
stated that he would consider all alternatives
to punishment, i.e., death, life without parole,
and life, if prisoner were convicted of malice or
felony murder, when juror posted on his social
media page, at time jury sentenced prisoner to
death, that “only just punishment was the death
penalty,” that “I pointed out to the jury that by
giving [prisoner] life in prison ... we were giving
him exactly what he wanted,” and that “I myself
could not sleep soundly at night knowing that
I had given a man convicted of malice murder
the exact sentence he wanted,” was procedurally
defaulted on federal habeas review, where it was
not raised before state court. U.S. Const. Amend.
6.

When a state court determines that a claim was
defaulted on procedural grounds, the federal
habeas court will review it on the merits only
in two narrow circumstances: a petitioner must
show either (1) cause for the default and actual
prejudice resulting from the default, or (2) a
“fundamental miscarriage of justice”—i.e., that
a constitutional violation has resulted in the
conviction of someone who is actually innocent.

[19]

Habeas Corpus

[25]

Habeas Corpus
Default, etc., precluding
state court consideration

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

Habeas Corpus
Remedies

Exhaustion of State

Failing to raise an argument in state court is an
exhaustion problem, not a procedural default, on
federal habeas review, but a claim is procedurally
defaulted for the purposes of federal habeas
review where the petitioner failed to exhaust
state remedies and the court to which the
petitioner would be required to present his claims
in order to meet the exhaustion requirement
would now find the claims procedurally barred.

[26]

Habeas Corpus
counsel

Habeas Corpus
in general

Discretion and necessity

When a habeas petitioner in state custody seeks
a hearing in federal court, the court must first
determine whether the petitioner was diligent in
his efforts to develop the facts in state court.
1 Cases that cite this headnote
[28]

Habeas Corpus
in general

1 Cases that cite this headnote
[29]

Ineffectiveness or want of

State prisoner's general assertions to effect that
appellate counsel failed to protect his rights with
respect to general claims of juror misconduct,
that counsel's performance “was unreasonably
deficient,” and that he “was prejudiced by these
deficiencies,” was insufficient to demonstrate
cause and prejudice for procedural default of
claim that appellate counsel was ineffective
for failure to present evidence that juror lied
during voir dire when he stated that he would
consider all alternatives to punishment, i.e.,
death, life without parole, and life, if prisoner
were convicted of malice or felony murder,
as required to obtain federal habeas review
claim not exhausted before state court; prisoner
nowhere argued before state court that appellate
counsel performed deficiently by failing to
challenge specific juror's conduct, let alone how
or why counsel were deficient in that respect.
U.S. Const. Amend. 6.

[27]

If a state prisoner was diligent in his efforts
to develop the facts in state court, a federal
court, on an applicable for federal habeas relief,
must consider whether an evidentiary hearing
could enable the prisoner to prove the petition's
factual allegations, which, if true, would entitle
the prisoner to federal habeas relief.

Discretion and necessity

Habeas Corpus
in general

Discretion and necessity

Habeas Corpus

Discretion of lower court

When a state prisoner asks for an evidentiary
hearing to prove cause and prejudice for the
failure to exhaust a claim in state court, neither
the statute setting forth the requirements for
habeas review in the event a prisoner was not
diligent in his efforts to develop the facts in state
court, nor the standard of cause and prejudice
that the statute replaced, applies; rather, the
reviewing court need ask only whether the
district court abused its discretion when it denied
an evidentiary hearing on that issue.
U.S.C.A. § 2254(e)(2).

[30]

Habeas Corpus

28

Counsel

State prisoner was not entitled to evidentiary
hearing on procedurally barred habeas claim of
ineffectiveness of appellate counsel in failing to
raise claim on direct appeal that juror's posts
on social media indicated that he had lied
during voir dire when he said that he would
consider all three sentencing alternatives, i.e.,
death, life without parole, and life, if prisoner
was convicted of malice or felony murder; merits
hearing would have been futile because prisoner
could not prove petition's factual allegations, and
cause and prejudice hearing would also have
been futile, even though he requested hearing to
show cause and prejudice on juror-misconduct
claim, where he failed to request hearing to show
cause and prejudice with respect to claim that
appellate counsel was ineffective for failure to
present claim of juror misconduct. U.S. Const.
Amend. 6.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

The horrific facts of Ledford's crime are not presently
disputed. The Georgia Supreme Court described them as
follows:
Attorneys and Law Firms
*1150 Jeffrey Lyn Ertel, Gerald Wesley King, Jr., Federal
Defender Program, Inc., William A. Morrison, The Morrison
Firm LLC, Atlanta, GA, for Petitioner-Appellant.
Sabrina Graham, Clint Christopher Malcolm, Beth Attaway
Burton, Christopher Michael Carr, Omotayo Popoola,
Attorney General's Office, Atlanta, GA, for RespondentAppellee.
Appeal from the United States District Court for the Northern
District of Georgia, D.C. Docket No. 4:17-cv-00211-MHC
Before WILLIAM PRYOR, Chief Judge, NEWSOM, and
BRANCH, Circuit Judges.
Opinion
NEWSOM, Circuit Judge:
Michael Ledford was convicted by a Georgia jury of
malice murder, felony murder, aggravated battery, aggravated
sodomy, kidnapping with bodily injury, and aggravated
assault.
Ledford v. State, 289 Ga. 70, 709 S.E. 2d 239,
245 n* (2011). On appeal from the district court's denial of
federal habeas corpus relief, Ledford does not contest his
conviction—only the sentence of death imposed by the same
jury. In challenging his death sentence, Ledford argues (1) that
prosecutors exercised their peremptory challenges in a way
that discriminated against women, (2) that his trial counsel
rendered constitutionally ineffective assistance during the
penalty phase of his trial, and (3) that one of the jurors in his
trial lied during voir dire and thus deprived him of an impartial
jury.
Having carefully reviewed the parties’ briefs and heard oral
argument, we hold that none of Ledford's arguments entitle
him to relief.

*1151 The evidence presented at trial
showed that, on July 25, 2006, Michael
Ledford pretended to go to work but,
instead, bought beer and drank it near
the Silver Comet Trail, a recreational
trail used for biking, running, and other
activities. Ledford knocked Jennifer
Ewing from her bicycle as she rode by
his location. He dragged her a distance
off the trail to a location shielded from
view by vegetation. He stripped off all
of her clothing from the waist down,
and he pulled her shirt up part way,
exposing her breasts. She suffered
bruises throughout her body in the
struggle. When Ledford forced his
penis into her mouth, she bit his penis
and severely wounded it. Enraged
by her resistance, Ledford unleashed
a shocking attack during which he
stomped on her face and nose, her
larynx, and her ribs. Ms. Ewing
gradually succumbed to asphyxiation
caused by her wounds and the resulting
bleeding into her lungs.

Ledford, 709 S.E.2d 239 at 245.

B
1
The procedural history of Ledford's case is both exceedingly
complicated and largely unnecessary to his appeal. We will
focus on a few key points.

I
A

a
The first is jury selection. During voir dire, juror Harold
Ridarick testified that, as a general matter, he was not

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

conscientiously opposed to a sentence of life with the
possibility of parole as a penalty for murder. When asked if
he would automatically vote for any one of the three possible
penalties—life, life without parole, and death—he said that he
would “equally consider” them. When the prosecutor asked,
however, whether Ridarick “fit[s] into the category” of people
who would not “consider life with the possibility of parole
for somebody that's committed a malice or felony murder,”
Ridarick answered: “I would probably fit into that category.”
After the prosecutor asked him to clarify whether he was
saying that “once [he] made that decision that they committed
that malice or felony murder that life with the possibility of
parole is really not an option,” Ridarick clarified: “I'd still
have to weigh the mitigating circumstances, factors, and you
know, depending on those I think I could go with either of the
three.”
“Out of an abundance of caution,” Ledford's trial counsel
moved, unsuccessfully, to have Ridarick removed for cause
based on his apparent reticence to “consider life with the
possibility of parole for one that he found guilty of malice
or felony murder.” As we will explain later, Ledford now
argues that Ridarick lied during voir dire and that, in fact,
he was really only ever willing to consider the death penalty.
Ledford's new objection is based on several of Ridarick's
online postings from May 22 and 23, 2009—the day and
the day after the jury sentenced Ledford to death—which
Ledford's lawyers apparently discovered sometime in late
2013 or early 2014.

b
Also during voir dire, the state used nine of its twelve
peremptory strikes to remove females, who made up 15 of
the 36 (or 42% of) venire members. Ledford challenged these
strikes as discriminatory, but the trial court determined that
he had not made a prima facie showing of discrimination, and
so denied the challenge without requiring the state to proffer
non-discriminatory reasons for the strikes.

c
After jury selection came the trial, which was bifurcated into
guilt and penalty *1152 phases. At the close of the guilt
phase, the jury convicted Ledford of malice murder for killing
Ewing and of all other related charges. A few days later at
the close of the penalty phase, the same jury imposed a death

sentence. Ledford challenges his defense team's penaltyphase strategy, which he says amounted to constitutionally
ineffective assistance of counsel. In particular, Ledford asserts
that his lawyers erred in putting on evidence concerning
antisocial personality disorder (ASPD) and psychopathy,
which, he says, permitted prosecutors to argue those issues
against him. With respect to Ledford's ineffective-assistance
claim, some background is in order.
Defense counsel decided that the “primary sentencing phase
strategy [would be] to show the jury that [Ledford] had
voluntary and involuntary brain damage, which diminished
his frontal lobe capacity and prevented him from controlling
his impulses.” To that end, they wanted to use experts to
establish that Ledford had “psychiatric issues, based a lot
on his upbringing and also his drug use and alcohol abuse,”
as well as eyewitness testimony to establish brain injury.
Counsel planned to augment their brain-damage strategy
with testimony from Ledford's family members designed to
humanize him.
During opening statements at the penalty phase, defense
counsel laid out their main theory to the jury. They described
Ledford's upbringing as abusive and dysfunctional and said
that he suffered brain damage when he was a child. Counsel
emphasized that Ledford didn't choose to be brain-damaged;
that he didn't choose to have an abusive upbringing; and
that he didn't necessarily even choose to be an alcoholic
—a condition that allegedly exacerbated the brain damage.
Counsel didn't mention anything about Ledford having ASPD
or psychopathy during opening arguments.
Defense counsel put on copious evidence in aid of their braindamage theory. Especially important was the testimony of
Ledford's brother Donald. He testified that when Ledford
was about eight or nine he fell out of a tree, landed on a
garage, rolled off, and hit the ground. Donald had initially
thought the fall had killed Ledford, who wasn't moving.
Ledford remained hospitalized for a month and had to wear
an upper-body cast for another month. Donald explained that
Ledford's behavior changed after this injury and that he began
experiencing severe migraines.
Defense counsel also put on abundant expert testimony:
from a mitigation investigator, a forensic psychiatrist,
a psychopharmocologist, a clinical social worker, a
neuropsychiatrist, an internist, and two more psychologists—
all in aid of their overarching theory that childhood injury and
substance abuse had damaged Ledford's brain and rendered

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

him mentally unwell and that this confluence of events was
not his fault. It was during expert testimony—especially on
cross-examination—that ASPD and psychopathy first came
up. To provide some salient examples, defense expert Dr.
Thomas Sachy testified that people with brain scans that
show a pattern of damage like Ledford's have impaired moral
judgment. He explained that “if you put these people in a high
dilemma situation with this brain damage, they were more
likely to do things that they would later think were amoral.”
On cross, Dr. Sachy allowed that the damage to Ledford's
brain would leave him “prone to rage.”
Defense expert Dr. Robert Shaffer similarly testified that
someone with Ledford's pattern of brain damage “would
not really have feelings about the consequences of what
they were doing, the impact that it would have on someone
else, the ability to *1153 empathize with another person
and feel a concern about what would happen to that other
person.” He also likened Ledford to “sexual sadists.” Defense
counsel asked Dr. Shaffer background questions about
psychopathy generally, and specifically elicited testimony
that psychopathy is not a choice. On cross, Dr. Shaffer
observed that a rape of which Ledford had previously been
convicted was consistent with “sexual sadism.” He further
testified that a previous breaking-and-entering conviction was
“consistent with what we're seeing, which is an individual
who has no sense of emotion regarding the impact of his
actions on someone else.” He also noted that Ledford's pattern
of lying to cover his crimes was “very characteristic of what
we call psychopathic behavior.”
On rebuttal, the state called its own experts, who supported
the conclusion that Ledford was either antisocial, a
psychopath, or both, but who disputed the notion that his
disorder was caused by brain damage.
Defense counsel's strategy failed; at the conclusion of the
penalty phase, the jury sentenced Ledford to death.

2
Ledford moved unsuccessfully for a new trial and then
appealed his conviction to the Georgia Supreme Court, which
affirmed both his conviction and the death sentence. In so
doing, that court considered and affirmed the trial judge's
determination that Ledford failed to make a prima facie case
that the prosecution discriminated on the basis of gender in
exercising its peremptory strikes. Ledford didn't raise his juror

misconduct or ineffective-assistance-of-trial-counsel claims
before the Georgia Supreme Court—or at any time on direct
appeal. See generally
Ledford, 709 S.E.2d 239. Ledford
filed a petition for certiorari in the United States Supreme
Court, which was denied, ending his direct appeal.

3
Ledford then sought state habeas relief. Most importantly
for our purposes, Ledford argued—for the first time—that
Ridarick had lied in response to questions at voir dire. Ledford
sought to subpoena Ridarick and other jurors to testify that
Ridarick was unwilling to consider penalties other than death.
In support of the subpoenas, Ledford proffered screenshots of
Ridarick's May 2009 online postings, in which Ridarick had
stated that “the only just punishment was the death penalty.” 1
The posts clearly showed that Ridarick had expressed the
belief that only the death penalty was appropriate for Ledford,
but they did not make clear when he came to that conclusion.
For instance, one stated: “So I pointed out to the jury that by
giving life in prison to Ledford we were giving him exactly
what he wanted.” He continued: “I myself could not sleep
soundly at night knowing that I had given a man convicted of
malice murder the exact sentence he wanted and that the only
just punishment was the death penalty.” The state successfully
moved to quash Ledford's subpoenas, contending that the
juror testimony would be inadmissible under Georgia law. 2
*1154 [1]
[2] The state habeas court never decided on
the merits whether Ledford was entitled to relief based on
Ridarick's posts. The state argued that Ledford had forfeited
any argument about Ridarick's supposed bias by virtue of his
failure to raise it on direct appeal, and the state incorporated
its procedural-default position into a proposed order denying
Ledford's state habeas petition. The state habeas court
adopted the state's proposed order, holding that Ledford had
procedurally defaulted his juror-misconduct claim by failing
to raise it on direct appeal. In the same order, the state habeas
court considered and rejected on the merits Ledford's claim
that his trial counsel were ineffective for offering evidence
pertaining to ASPD and psychopathy. 3 The court held both
that counsel's performance was not deficient and that Ledford
suffered no resulting prejudice.
The Georgia Supreme Court declined to review the
state habeas court's decision, summarily denying Ledford's
application for a certificate of probable cause. Ledford

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

again unsuccessfully sought certiorari from the United States
Supreme Court.

Knight v. Fla. Dep't of Corr., 936 F.3d 1322, 1330–31
(11th Cir. 2019) (alterations in original) (citations omitted).
Importantly, as used in

4
Ledford next initiated federal habeas corpus proceedings
in the Northern District of Georgia. He brought all three
claims at issue here—that the prosecutor had exercised his
peremptory strikes in discriminatory fashion, that his trial
counsel had provided ineffective assistance during the penalty
phase, and that Ridarick had lied to conceal bias during voir
dire. Ledford also sought an evidentiary hearing to develop
additional evidence pertaining to his juror-misconduct claim.
The district court denied both Ledford's request for a hearing
and his petition. After the district court also denied his motion
to alter or amend the judgment, Ledford appealed to this
Court.

II
The state courts rejected two of Ledford's claims—that the
prosecution exercised peremptory strikes in a discriminatory
manner to exclude women and that his trial counsel rendered
constitutionally ineffective assistance of counsel—on the
merits, and one of his claims—that Ridarick lied during voir
dire—on procedural grounds. These two different postures
lead to two different standards of review in this Court.

§ 2254(d), “unreasonable” means

“more than simply incorrect.”
Sealey v. Warden, Georgia
Diagnostic Prison, 954 F.3d 1338, 1354 (11th Cir. 2020).
An “application of federal law is unreasonable only if
no fairminded jurist could agree with the state court's
determination or conclusion.”
Id. (quoting Raulerson v.
Warden, 928 F.3d 987, 995–96 (11th Cir. 2019)). “This is a
‘difficult to meet and highly deferential standard ..., which
demands that state-court decisions be given the benefit of the
doubt.’ ”

Id. (quoting Raulerson, 928 F.3d at 996).

Because the Georgia courts considered and rejected Ledford's
jury-selection and ineffective-assistance-of-counsel claims
on the merits, AEDPA's deference regime applies to both. The
Georgia courts did not consider Ledford's juror-misconduct
claim on the merits but rather rejected it on procedural
grounds. Accordingly, instead of AEDPA's deference regime,
we will apply “cause-and-prejudice” analysis to determine
whether Ledford can overcome his procedural default. We
will explain the standards that govern that analysis below, in
conjunction with our evaluation of that claim.

A

[7]
[8] Ledford first challenges his conviction on the
[3] [4] [5] [6] The Antiterrorism and Effective Deathground that the prosecution discriminated against women in
Penalty Act (AEDPA) forbids us to grant relief on a
selecting his jury in violation of the Fourteenth Amendment.
“claim that was adjudicated on the merits in State court
Ordinarily, “[p]arties may ... exercise their peremptory
proceedings unless” the decision of the state court “was
challenges to remove from the venire any group or class of
contrary to, or involved an unreasonable application of,
individuals normally subject to ‘rational basis’ review,” but
clearly established Federal law, as determined by the Supreme
they may not exercise such strikes “solely because of race
Court of the United States,” or “was based on an unreasonable
or”—as relevant here—“gender.”
J.E.B. v. Alabama, 511
determination of the facts.”
28 U.S.C. § 2254(d).
U.S. 127, 143, 146, 114 S.Ct. 1419, 128 L.Ed.2d 89 (1994).
“[T]he Equal Protection Clause prohibits discrimination in
A decision is “contrary to” clearly established federal law
jury selection on the basis of gender, or on the assumption that
“if the state court arrives at a conclusion opposite to that
an individual will be biased in a particular case for no reason
reached by [the Supreme] Court on a *1155 question of
other than the fact that the person happens to be a woman or
law or if the state court decides a case differently than [the
happens to be a man.”
Id. at 146, 114 S.Ct. 1419.
Supreme] Court has on a set of materially indistinguishable
facts.” A state court decision involves an unreasonable
[9] A well-established burden-shifting framework governs
application of federal law “if the state court identifies
claims that the prosecution exercised peremptory strikes in a
the correct governing legal principle from [the Supreme]
discriminatory manner. As the Supreme Court has explained
Court's decisions but unreasonably applies that principle to
it:
the facts of the prisoner's case.”
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

[11] But not just any statistical disparities will suffice
to demonstrate a prima facie case of discrimination. See
First, the defendant must make out
a prima facie case by showing that
the totality of the relevant facts give
rise to an inference of discriminatory
purpose. Second, once the defendant
has made out a prima facie case,
the burden shifts to the State to
explain adequately the ... exclusion by
offering permissible [gender]-neutral
justifications for the strikes. Third,
if a [gender]-neutral explanation is
tendered, the trial court must then
decide ... whether the opponent of
the strike has proved purposeful ...
discrimination.

Johnson v. California, 545 U.S. 162, 168, 125 S.Ct. 2410,
162 L.Ed.2d 129 (2005) (quotations and quotation marks
omitted); see also
Smith v. Comm'r, Alabama Dep't of
Corr., 924 F.3d 1330, 1343–44 (11th Cir. 2019) (applying the
same burden shifting framework to a gender-discrimination
*1156 claim), cert. denied sub nom. Smith v. Dunn, No.
19-7745, ––– U.S. ––––, ––– S.Ct. ––––, ––– L.Ed.2d ––––,
2020 WL 3578738 (U.S. July 2, 2020).
[10] Both the state courts and the district court rejected
Ledford's jury-selection claim at the first step—they
determined that he failed to make a prima facie case of gender
discrimination.
Ledford, 709 S.E.2d at 253. We agree, and
we thus cannot conclude that “no fairminded jurist could
agree with the state court's determination or conclusion.”
Sealey, 954 F.3d at 1354 (quotation omitted).
Ledford relied solely on statistical disparities in seeking
to make out a prima facie case of discrimination; he did
not present any additional facts.
Ledford, 709 S.E.2d at
253. The state, he says, used 9 of its 12 peremptory strikes
against female jurors, where females made up 15 of the
36 prospective jurors. Ledford further points out that while
women made up 42% of the venire, the prosecution used 75%
of its peremptory strikes against women. This resulted in a
jury, he complains, with only two female jurors (17%). 4

United States v. Hill, 643 F.3d 807, 838 (11th Cir. 2011)
(“Under our precedent these statistics, without more, do
not establish a prima facie case.” (emphasis added)). And
our precedent makes clear that statistical disparities of the
magnitude present in Ledford's jury do not support a prima
facie case. In
Hill, for example, “[t]he government had,
and it exercised, 14 peremptory strikes; it used 9 (64%) of
them against black venire members,” who represented 41% of
the venire. Id. Nevertheless, we affirmed the district court's
determination that the defendant had not made out a prima
facie case of discrimination.

Id. at 840.

In
Hill, we also drew on our earlier decision in United
States v. Campa, where “the government was allotted 11
peremptory strikes and used 9 of them,” and “[s]even of
those nine strikes (78%) were used against blacks.”
Id. at
838 (citing Campa, 529 F.3d 980, 989 (11th Cir. 2008)). If
measured as a percentage of strikes actually used, rather than
as a percentage of those allotted, the disparity in Campa was
even starker than that here—78% as against 75%. And even
if measured as a percentage of allotted challenges, this case
involves an only slightly greater disparity—64% vs. 75%.
Yet in Campa, despite numbers arguably more suggestive of
discrimination than we face here, we reversed the district
court's determination that the defendant had made out a prima
facie case. See Campa, 529 F.3d at 998. In light of Hill and
Campa, we are hard pressed to describe as unreasonable the
state court's decision here that Ledford failed to demonstrate
a prima facie case.
[12] Notably, the same precedents also make clear that the
inference of discrimination is weakened where, as here, the
state accepts jurors in the allegedly targeted group. That
the state accepted female jurors, even in small numbers,
where a different allocation of strikes could have reduced
female participation even further, tends to undermine the
inference that those women who were peremptorily excluded
were targeted on account of their gender. See
Hill, 643
F.3d at 838 (observing that “[t]he final jury of 18 (12
plus six alternates) included nine (50%) blacks” but could
have included as few as “four (22%) *1157 black[ ]”
members “[i]f the government had exercised all of the
strikes it could against black venire members”); Campa,
529 F.3d at 998 (noting that “the jury included three black

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

jurors and an alternate black juror,” which demonstrated that
“the government did not attempt to exclude as many black
persons as it could”). Although fewer women—two female
jurors with two female alternates—remained on Ledford's

defense attorney would ever pursue a diagnosis of ASPD or
label his client a psychopath in mitigation of punishment.” If
that proposition were correct as a matter of law, Ledford may
well *1158 have a viable ineffective-assistance claim under

jury than black jurors in either
Hill or Campa, the same
principle applies because the floor on female jurors was
lower here. If the prosecution had used all of its strikes
against women, it could potentially have achieved an allmale jury. In total, the state accepted six female jurors and
three female alternates, but the defense struck four and one,
respectively, leaving the four who served (two jurors and two
alternates). Moreover, the prosecution accepted the very first
prospective female juror. Although none of these observations
conclusively demonstrates the absence of discrimination, the
overall pattern belies an intent to discriminate, and the burden
to make out a prima facie case lies with the party claiming
discrimination—here, Ledford.

Strickland—because the record demonstrates as a matter
of fact that defense counsel presented an ASPD diagnosis
as part of their theory of defense. But the legal premise of

Even if we were free to review the state courts’ decisions de
novo, our precedent would counsel affirmance. The proper
disposition is even clearer under
§ 2254(d)’s exceedingly
deferential standard. We cannot grant habeas relief unless
the state court's application of the burden-shifting framework
was “unreasonable”—that is, unless it was an application that
“no fairminded jurist” could endorse.
Sealey, 954 F.3d at
1354. Here, the Georgia Supreme Court correctly applied the
well-established burden-shifting framework, noting—much
as we have—that the statistical disparities to which Ledford
pointed were insufficient to establish a prima facie case
absent “additional facts which may give rise to an inference
of discriminatory purpose.”
Ledford, 709 S.E.2d at 253
(quotation omitted). The Georgia court's determination that
Ledford failed to make prima facie case is at the very least
not unreasonable. 5
Ledford is not entitled to habeas relief based on the
prosecution's use of peremptory strikes.

B
[13] Ledford next argues that the state habeas court
unreasonably applied clearly established federal law when it
declined to find that his trial counsel rendered constitutionally
ineffective assistance during the penalty phase of his
trial. Ledford argues—and at the state evidentiary hearing
presented expert testimony—that “no competent capital

Ledford's argument does not withstand scrutiny. 6
[14]
[15] “Under
Strickland’s familiar two-part test,
[a defendant] must show that counsel's performance (1)
‘fell below an objective standard of reasonableness’ and (2)
‘prejudiced the defense.’ ” Tharpe v. Warden, 834 F.3d 1323,
1338 (11th Cir. 2016) (quoting
Strickland v. Washington,
466 U.S. 668, 687–88, 104 S.Ct. 2052, 80 L.Ed.2d 674
(1984)). “When a habeas petitioner in state custody raises
a

Strickland claim in federal court, the commands of
Strickland and

§ 2254(d) operate in tandem so that our

review is ‘doubly deferential.’ ” Id. (quoting
Yarborough
v. Gentry, 540 U.S. 1, 6, 124 S.Ct. 1, 157 L.Ed.2d 1 (2003)
(per curiam)). We will thus grant relief only if the state habeas
court unreasonably determined that trial counsel performed
reasonably—i.e., “where there is no possibility fairminded
jurists could disagree,”
Harrington v. Richter, 562 U.S.
86, 102, 131 S.Ct. 770, 178 L.Ed.2d 624 (2011), that defense
counsel acted “outside the range of professionally competent
assistance,”
Jenkins v. Comm'r, Ala. Dep't of Corr., 963
F.3d 1248, 1270 (11th Cir. 2020) (quotation omitted).
[16] Insofar as Ledford argues for “a per se rule that a lawyer
renders ineffective assistance by presenting evidence of an
antisocial personality disorder for purposes of mitigation,”
his position is squarely foreclosed by Morton v. Sec'y, Fla.
Dep't of Corr., 684 F.3d 1157, 1168 (11th Cir. 2012). Ledford's
argument comes perilously close to asking us to overrule
Morton, which of course we cannot do. 7
[17] Although Ledford disclaims any reliance on a per se
rule that presenting ASPD evidence in mitigation constitutes
deficient performance, his expert squarely testified (as
already noted) that “no competent capital defense attorney
would ever pursue a diagnosis of ASPD or label his client
a psychopath in mitigation of punishment.” As a result,
the thrust of his argument is in stark tension with Morton.
There, we explained that whether to present such evidence

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

is “uniquely a matter of trial strategy” because “a diagnosis
of antisocial personality disorder” is “a double-edged sword”
that has the potential either to harm or to help the defendant.
Morton, 684 F.3d at 1168; see also
Strickland, 466 U.S. at
690, 104 S.Ct. 2052 (“[S]trategic choices made after thorough
investigation of law and facts relevant to plausible options
are virtually unchallengeable.”). Accordingly, Ledford must
do more than just point to his trial counsel's use of ASPD
evidence; he must explain why presenting ASPD evidence
was unreasonable based on the particular circumstances of his
case.
Ledford attempts such an explanation, but his arguments
come up short. He contends that his trial counsel could
have provided all the mitigating evidence of his awful
upbringing—in Ledford's view, the strongest mitigating
evidence available—without introducing any evidence from
psychological experts at all. And he insists that the only
cost of avoiding psychological *1159 experts would have
been losing out on flimsy evidence of Ledford's childhood
brain damage. He further argues, most importantly, that his
preferred strategy would have prevented the prosecution from
bringing up Ledford's psychological condition at all because
Georgia law precludes such evidence unless the defendant
first opens the door to it.
Even accepting Ledford's premises uncritically—i.e.,
assuming (1) that trial counsel could have prevented any
testimony about his psychological state by declining to put on
the ASPD evidence and (2) that beyond the diagnosis itself,
he would have sacrificed only the evidence of childhood
brain injury—Ledford has failed to demonstrate that his trial
counsel's preferred strategy “fell below an objective standard
of reasonableness.”
Strickland, 466 U.S. at 688, 104
S.Ct. 2052. Competent trial counsel could have reasonably
concluded that presenting the theory that childhood brain
injuries gave Ledford ASPD was worth opening the door
to additional psychopathy evidence. Ledford's crime was
heinous and shocking—the kind of thing that a troubled
childhood alone, no matter how extreme, might not be enough
to excuse in the minds of a jury. Defense counsel could
have reasonably concluded that brain damage, no matter
how proven, might provide an avenue for escape that no
amount of childhood abuse or suffering could provide—an
excuse that could, in the minds of jurors, eliminate Ledford's
responsibility for his appalling crime.

Let us elaborate. Defense counsel could have reasonably
concluded that it would be difficult for a jury to imagine that
any amount of abuse or personal suffering could sufficiently
explain what Ledford did—lie in wait to rape a stranger
only to beat her to death when she resisted. Such conduct
speaks to a dispassionate plan for personal gratification with
no thought of the cost to be borne by the innocent who
became his target—not the kind of crime that a troubled
upbringing could satisfactorily explain. Counsel could also
have reasonably concluded that Ledford's best (or only)
hope to avoid the death penalty was an explanation of his
crimes that undermined his agency in that heinous act, rather
than merely partially undermining his culpability. Counsel
could also have reasonably concluded that brain injury might
offer this kind of excuse—if a childhood fall, possibly
in combination with chronic alcoholism, somehow turned
Ledford into a “psychopath” then his crimes could be seen as
the product of a disability beyond his control. Cf. Morton, 684
F.3d at 1169 (explaining that counsel “could have reasonably
decided that [expert] testimony was necessary to explain why
Morton's childhood mitigated his moral culpability for the
murders” (emphasis added)). Accordingly, even a purportedly
flimsy case of brain damage might reasonably have attracted
Ledford's counsel more than a straightforward troubledchildhood strategy.
And while it is true that ASPD can be aggravating rather than
mitigating, 8 trial *1160 counsel here could have reasonably
concluded that linking ASPD to an injury sustained when
the defendant was an innocent child could ameliorate any
aggravating effect the diagnosis might have had and transform
it into a mitigating factor. The defense did not present ASPD
as mitigating on its own but emphasized its theory that
Ledford's ASPD was the result of brain injury sustained
through no fault of his own. This judgment, too, was
reasonable.
Maybe Ledford is right, in retrospect, that his trial counsel's
strategy was not the best one—and that the course he now
outlines would have given him a better chance at avoiding
a death sentence. Maybe not. But even if Ledford is right,
trial counsel's strategy was not unreasonable, especially in
light of our clear holding in Morton that ASPD evidence can
be mitigating in certain circumstances. We would hesitate
to hold that Ledford's counsel acted deficiently even if we
were at liberty to review the state courts’ decisions de novo.
Once again, that outcome is even clearer considering the
second layer of AEDPA deference—deference to the Georgia
state habeas court. That court concluded that Ledford's

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

representation was sufficient after an extremely thorough
examination of trial proceedings—indeed, its summary of
the proceedings occupied half of the court's 70-page order.
Moreover, that court diligently applied the
Strickland
standard and concluded that trial counsel's strategy was not
deficient, relying heavily on Morton, which, as we have
explained, provides the proper frame of analysis. We are
certainly not prepared to call an analysis so similar to our
own an “unreasonable application” of

Strickland that “no

fairminded jurist” could endorse.
Sealey, 954 F.3d at
1354. We cannot, therefore, disturb the state habeas court's
conclusion that trial counsel's performance was not deficient,
and we have no need to consider whether counsel's actions
prejudiced Ledford's defense. No relief is due to be granted
on this point.

C
1
We now turn to Ledford's final claim for relief—Ridarick's
alleged juror misconduct. For the first time before the state
habeas court, Ledford proffered evidence of Ridarick's May
2009 online comments, which were posted soon after the
verdict was returned, and argued that they contradicted
Ridarick's sworn statements at voir dire. As Ledford reads
the posts, they demonstrate Ridarick's belief that the death
penalty is the only just sentence for malice murder. Ledford
points out that at voir dire Ridarick stated that he could and
would consider all possible sentencing options for a person
convicted of malice murder. Accordingly, Ledford says, the
posts prove that Ledford lied at voir dire and, in fact, was set
on the death penalty from the outset—which, Ledford argues,
violated his constitutional right to an impartial jury.
[18] The state habeas court didn't reach the merits of this
claim but instead disposed of it on procedural grounds,
concluding that Ledford had defaulted it by failing to raise
it on direct appeal. 9 When a state court determines that a
claim was defaulted on procedural grounds, we will *1161
review it on the merits “only in two narrow circumstances.”
Henderson v. Campbell, 353 F.3d 880, 892 (11th Cir.
2003). A petitioner must show either (1) “ ‘cause’ for the
default and actual ‘prejudice’ resulting from the default”
or (2) a “fundamental miscarriage of justice”—i.e., that “a

constitutional violation has resulted in the conviction of
someone who is actually innocent.” Id.
[19]
[20] Ledford does not contend that he is actually
innocent, so we focus here on cause and prejudice. “To
show cause, the petitioner must demonstrate ‘some objective
factor external to the defense’ that impeded his effort to
raise the claim properly in state court.”

Ward v. Hall,

592 F.3d 1144, 1157 (11th Cir. 2010) (quoting
Murray
v. Carrier, 477 U.S. 478, 488, 106 S.Ct. 2639, 91 L.Ed.2d
397 (1986)). “We have ... determined that an ineffectiveassistance-of-counsel claim ... may constitute cause”—but
only, and importantly, as we explain below, if it is “both
exhausted and not procedurally defaulted.” Ward, 592 F.3d
at 1157. “To establish ‘prejudice,’ a petitioner must show that
there is at least a reasonable probability that the result of the
proceeding would have been different” if he had been allowed
to raise the issue in state court. Henderson, 353 F.3d at 892.
Ledford argues that the ineffective assistance of his appellate
counsel establishes cause for his default. 10 Specifically, he
contends that his appellate counsel were deficient in failing to
investigate Ridarick's social media activity during his direct
appeal. Ledford's cause argument fails because he failed to
timely raise it.
[21]
[22] Before a habeas petitioner can rely on an
allegation of ineffective assistance of counsel to demonstrate
cause to excuse a procedural default, he must show that
he properly raised the argument in state court, because
ineffective assistance is itself a constitutional claim. See
Edwards v. Carpenter, 529 U.S. 446, 452, 120 S.Ct.
1587, 146 L.Ed.2d 518 (2000) (“A claim of ineffective
assistance ... must be presented to the state courts as an
independent claim before it may be used to establish cause for
a procedural default.” (alteration adopted) (internal quotation
marks omitted)); see also
Ward, 592 F.3d at 1157 (“We
have ... determined that an ineffective-assistance-of-counsel
claim, if both exhausted and not procedurally defaulted,
may constitute cause.” (emphasis added)). Because Ledford
did not properly raise his ineffective-assistance-of-appellatecounsel claim in state court, he has failed to exhaust (and thus
cannot now press) his only argument for cause.
*1162 Before the state habeas court, Ledford provided
only hints of the argument he now advances—insufficient to
exhaust and preserve it. In two footnotes in his initial state

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

habeas petition, Ledford stated (1) that “[t]o the extent that
Petitioner's counsel failed to protect Petitioner's rights in this
regard, counsel's performance was unreasonably deficient,
and Petitioner was prejudiced by the deficiencies,” and (2)
that “[t]o the extent that Petitioner's counsel failed to argue,
develop, or present these issues, failed to adequately preserve
objections thereto, or failed to effectively litigate these issues
on direct appeal, Petitioner's counsel rendered ineffective
assistance, and Petitioner was prejudiced thereby.”
Both footnotes referred generally to a collection of vaguely
worded allegations of jury misconduct in the body of
the petition, all of which Ledford has since abandoned,
save for his allegation that Ridarick lied at voir dire. But
nowhere before the state habeas court did Ledford argue
that his appellate counsel performed deficiently by failing to
challenge Ridarick's conduct in particular, let alone how or
why his appellate counsel were deficient in that connection.
And in his application for a certificate of probable cause
to the Supreme Court of Georgia, Ledford did not so much
as mention an argument that his appellate counsel were
ineffective. He just baldly asserted that he could prove cause
and prejudice to overcome the default of his juror-misconduct
claims if he were given an evidentiary hearing.

his ineffective-assistance-of-appellate-counsel-based cause
argument. Instead, he simply asserts—wrongly, *1163
as we have explained—that he sufficiently preserved his
ineffective-assistance-of-appellate-counsel claim by means
of his passing mentions in state habeas filings. And because
Ledford cannot establish cause or prejudice to excuse
the default of his ineffective-assistance-of-appellate-counsel
claim, that claim cannot serve as cause to excuse the default
of his juror-misconduct claim. In short, Ledford has failed
to exhaust—and thus has procedurally defaulted—his only
argument for overcoming the original procedural default.
Accordingly the district court did not err in denying his claim
of juror misconduct.

2

Ledford's request for an evidentiary hearing fails as well, and
for similar reasons. As already explained, Ledford requested
a hearing for two reasons: (1) to further develop his jurormisconduct claim on the merits and (2) to allow him to
present evidence of cause and prejudice. Before us, Ledford
contends, as he argued to the district court, that his appellate
counsel's deficient performance provides cause and that his
claim is strong enough to establish prejudice, and, therefore,
[23]
[24]
[25] Such general, conclusory statements are that he should have been allowed to present the evidence
insufficient to preserve a claim for federal habeas review.
of juror misconduct that the state habeas court never heard
See Kelley v. Secretary for the Dep't of Corr., 377
—testimony that he says will establish that Ridarick lied at
F.3d 1317, 1344 (11th Cir. 2004) (“[H]abeas petitioners
voir dire. Separately, he contends that even if the evidence
cannot preserve otherwise unexhausted, specific claims of
currently in the record does not establish cause and prejudice
ineffective assistance merely by arguing that their lawyers
for his default, he should have been allowed a hearing to
were ineffective in a general and unspecified way.”). We
produce additional evidence. The district court denied his
have held that “[t]he exhaustion doctrine requires a habeas
requests.
applicant to do more than scatter some makeshift needles
in the haystack of the state court record.”
McNair v.
Campbell, 416 F.3d 1291, 1303 (11th Cir. 2005) (quoting
Kelley, 377 F.3d at 1345). Ledford's “references to federal law
in his state habeas proceedings are exactly the type of needles
in the haystack that we have previously held are insufficient

[27]
[28] When a habeas petitioner seeks a hearing in
federal court, the court must first determine “whether the
prisoner was diligent in his efforts” to develop the facts in

to satisfy the exhaustion requirement.” Id. And because “a
cause and prejudice argument which is not presented in state
court is itself procedurally defaulted,” Ledford cannot raise
it “for the first time on federal habeas” unless he can show
“cause and prejudice for that particular default as well.” Fults

he must satisfy the conditions of
provision requires a showing that

v. GDCP Warden, 764 F.3d 1311, 1317-18 (11th Cir. 2014). 11
[26] But Ledford makes no argument that he can show
cause and prejudice sufficient to excuse the default of

state court.
Williams v. Taylor, 529 U.S. 420, 435, 120
S.Ct. 1479, 146 L.Ed.2d 435 (2000). If he was not diligent,
§ 2254(e)(2).

Id. That

(A) the claim relies on, (i) a new rule
of constitutional law, made retroactive
to cases on collateral review by the
Supreme Court, that was previously
unavailable; or (ii) a factual predicate

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

that could not have been previously
discovered through the exercise of due
diligence; and (B) the facts underlying
the claim would be sufficient to
establish by clear and convincing
evidence that but for constitutional
error, no reasonable factfinder would
have found the applicant guilty of the
underlying offense.

28 U.S.C. § 2254(e)(2). If, on the other hand, the petitioner
was diligent, “a federal court must consider whether such
a hearing could enable an applicant to prove the petition's
factual allegations, which, if true, would entitle the applicant
to federal habeas relief.”
Schriro v. Landrigan, 550 U.S.
465, 474, 127 S.Ct. 1933, 167 L.Ed.2d 836 (2007).
[29] Separately, “[w]hen a petitioner asks for an evidentiary
hearing” specifically on the issues of cause and prejudice,
“neither
section 2254(e)(2) nor the standard of cause
and prejudice that it replaced apply.” Henry v. Warden, Ga.
Diagnostic Prison, 750 F.3d 1226, 1231–32 (11th Cir. 2014).
Rather, “[w]hen a petitioner has requested an evidentiary
hearing on the procedural default of a substantive claim, we
need ask only whether the district court abused its discretion
when it denied an evidentiary hearing on that issue.” Id. at
1332. 12
[30] Without deciding whether or not Ledford pursued his
juror-misconduct *1164 claim diligently below, we affirm
the district court's refusal to conduct a hearing, either to
develop the merits or to investigate cause and prejudice.
Any merits hearing would have been futile because it is
plain that Ledford could not prove the petition's factual
allegations. See
Schriro, 550 U.S. at 474, 127 S.Ct. 1933
(“In deciding whether to grant an evidentiary hearing, a
federal court must consider whether the hearing could enable
an applicant to prove the petition's factual allegations, which,
if true, would entitle the applicant to federal habeas relief.”).
Specifically, there is no way an evidentiary hearing could
allow Ledford to overcome procedural default—as the district
court correctly held, he failed to exhaust his ineffective-

assistance-of-appellate-counsel-based cause argument. As
already explained, that argument was the only cause for
default that Ledford has presented in federal court, and
without it he cannot overcome the procedural bar on his jurormisconduct claim.
Ledford's requested cause and prejudice hearing would
have been similarly futile. Although Ledford requested a
hearing in part to show cause and prejudice as to his jurormisconduct claim, he failed to request a hearing to show
cause and prejudice with respect to his ineffective-assistanceof-appellate-counsel-based cause argument—or, indeed, even
argue that he could show cause and prejudice as to that
claim. As we have explained, he merely argues, wrongly, that
he exhausted the claim properly. With his only argument to
show cause itself procedurally barred, a hearing on cause and
prejudice would have been futile; both we and the district
court would be procedurally barred from finding Ledford's
appellate counsel ineffective, no matter what evidence he
adduced at the hearing. Accordingly, vacating and remanding
to the district court to allow it to apply the proper standards for
evidentiary hearings would serve no purpose; Ledford cannot
ultimately prevail, in any event.

III
The district court correctly concluded that Ledford is not
entitled to federal habeas relief. We cannot say that the
Georgia courts unreasonably decided Ledford's jury-selection
and ineffective-assistance claims. And Ledford procedurally
defaulted his juror-misconduct claim in state court, and
he cannot show cause to excuse that default because his
only cause argument—ineffective assistance of his appellate
counsel—itself was not properly exhausted in state court.
That failure precludes any relief, no matter what Ledford
might have been able to prove in an evidentiary hearing. As
result, we also affirm the district court's decision to deny the
hearing.
AFFIRMED.
All Citations
975 F.3d 1145, 28 Fla. L. Weekly Fed. C 1882

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

Footnotes
1
2

3

Other than the online postings themselves, Ledford offers no evidence to show that any of the subpoenaed
jurors would have, in fact, given testimony to contradict Ridarick's sworn statements at voir dire.
Because we ultimately hold Ledford's juror-misconduct claims to be procedurally barred, we need not and
do not decide whether the testimony of the subpoenaed jurors would be admissible under either Georgia
or federal law.
Ledford did not raise his juror-selection claim in state habeas proceedings, although he had raised it on direct
appeal. The state notes this omission in its brief, but it does not argue that this claim is unexhausted. We
conclude that the claim was properly exhausted because in Georgia “an issue actually litigated and decided
on direct appeal is precluded from being relitigated on [state] habeas corpus,” at least “[a]bsent compelling
reasons, such as a miscarriage of justice.”

4
5

Turpin v. Todd, 268 Ga. 820, 493 S.E.2d 900, 909 (1997);

Ward v. Hall, 592 F.3d 1144, 1156 (11th Cir. 2010) (“[I]n order to exhaust state remedies, a petitioner must
fairly present every issue raised in his federal petition to the state's highest court, either on direct appeal or
on collateral review.”).
Two out of four alternates were also women, bringing the total to four out of sixteen (25%).
At oral argument, Ledford relied heavily on the fact that the prosecution attempted to strike one additional
woman from serving as an alternate. That may be a wrinkle not squarely addressed in our existing precedent,
but it does not change the result here. Even if the prosecution had successfully struck another female juror,
it would not make this case significantly different from our existing case law. It certainly does not change the

6

circumstances enough to make the state court's application of Batson and
J.E.B. (or any other Supreme
Court precedent) unreasonable. Moreover, when the government realized that it had fewer strikes available
for removing alternates at the time, it withdrew its attempt to strike the female alternate juror in favor of striking
the next alternate juror—a man. If anything, this pattern of behavior indicates that the government was not
trying to reduce the number of women on the jury. Had that been the government's intention, it would not
have withdrawn a strike against the only woman that it knew the defendant had accepted.
Because the Supreme Court of Georgia summarily denied Ledford a certificate of probable cause on this

7

claim, we “look through” to state habeas court's order. See
Wilson v. Sellers, ––– U.S. ––––, 138 S. Ct.
1188, 1192, 200 L.Ed.2d 530 (2018).
“We are bound to follow a prior panel or en banc holding, except where that holding has been overruled or

8

undermined to the point of abrogation by a subsequent en banc or Supreme Court decision.”
Chambers
v. Thompson, 150 F.3d 1324, 1326 (11th Cir. 1998).
We have often recognized, in the context of rejecting ineffective-assistance claims in which a defendant
faulted his trial counsel for failing to present evidence of ASPD, that such evidence is often more aggravating
than mitigating. See
Weeks v. Jones, 26 F.3d 1030, 1035, n.4 (11th Cir. 1994) (noting, in dicta, based on
out-of-court precedent, that “[a]ntisocial personality disorder has been held not to be mitigating as a matter of
law”);
Reed v. Sec'y, Dep't of Corr., 593 F.3d 1217, 1248 (11th Cir. 2010) (holding that a “diagnosis—that
Reed had an antisocial personality disorder and narcissistic personality disorder—was more harmful to Reed
than mitigating”);

9

Cummings v. Sec'y, Fla. Dep't of Corr., 588 F.3d 1331, 1368 (11th Cir. 2009) (describing

“a diagnosis of antisocial personality disorder” as “not mitigating but damaging”);
Evans v. Sec'y for the
Dep't of Corr., 703 F.3d 1316, 1332 (11th Cir. 2013) (explaining that “we have held consistently” that evidence
of “antisocial personality disorder” is “potentially aggravating” because it “is a trait most jurors tend to look
disfavorably upon, that is not mitigating but damaging” (quotations omitted)); see also Kokal v. Sec'y, Dep't
of Corr., 623 F.3d 1331, 1349 (11th Cir. 2010).
See supra
at ––––
n.7. Reuters. No claim to original U.S. Government Works.
16
© 2021
Thomson

Ledford v. Warden, Georgia Diagnostic Prison, 975 F.3d 1145 (2020)
28 Fla. L. Weekly Fed. C 1882

10

At oral argument, Ledford's counsel expressly disclaimed any reliance on any cause argument of the type
that the Supreme Court recognized in
Williams v. Taylor, 529 U.S. 420, 120 S.Ct. 1479, 146 L.Ed.2d 435
(2000), and underscored that Ledford relies solely on ineffective assistance of appellate counsel to show
cause to excuse his default.
529 U.S. at 442, 120 S.Ct. 1479 (indicating that a “trial record” that “contains
no evidence which would have put a reasonable attorney on notice that” a juror had answered dishonestly
at voir dire can “establish cause” for a procedural default committed by failing to timely object to the juror
dishonesty). With respect to
Williams, Ledford argues only that it shows why any failure to develop the
record in the state habeas court was not due to lack of diligence on his part and why he should therefore have
been given an evidentiary hearing, an issue that we address below. Even if Ledford hadn't disclaimed any
reliance on the kind of cause identified in

11

12

Williams, Ledford failed to argue that particular cause argument

before the district court, and we needn't allow him to raise the argument now. See
Ochran v. United
States, 117 F.3d 495, 502–03 (11th Cir. 1997) (explaining that we may hold a position forfeited before the
district court even where the opposing party fails to raise the forfeiture argument to us).
Strictly speaking, failing to raise an argument in state court is an exhaustion problem, not a procedural default.
But “[a] claim is procedurally defaulted for the purposes of federal habeas review where ‘the petitioner failed
to exhaust state remedies and the court to which the petitioner would be required to present his claims in
order to meet the exhaustion requirement would now find the claims procedurally barred.’ ” Henderson, 353
F.3d at 898–99 (quoting
Coleman v. Thompson, 501 U.S. 722, 735 n.1, 111 S.Ct. 2546, 115 L.Ed.2d
640 (1991)). Georgia law generally bars successive habeas petitions, treating claims not raised in an initial
petition as procedurally defaulted. See Gibson v. Head, 282 Ga. 156, 646 S.E.2d 257, 259 (2007); see also
Ga. Code Ann. § 9-14-51 (“All grounds for relief claimed by a petitioner for a writ of habeas corpus shall be
raised by a petitioner in his original or amended petition. Any grounds not so raised are waived ....”).
The district court here seemingly denied Ledford a merits hearing based on a mistaken understanding of the
law, requiring both a showing of diligence under

Williams and satisfaction of the

28 U.S.C. § 2254(e)(2)

test, whereas
Williams actually allows a diligent litigant to bypass (e)(2) when seeking a merits hearing.
And although the district court did not separately address the propriety of a cause-and-prejudice hearing as
opposed to a merits hearing, it ultimately concluded that Ledford was “not entitled to an evidentiary hearing
under the standard discussed above”—apparently applying the same standard to both types of hearing. The
district court thus applied the wrong standard with respect to both merits and cause-and-prejudice hearings.
Because the district court made an error of law, we cannot defer to its decision under the abuseof-discretion
standard as we ordinarily would when reviewing a decision to deny a hearing. See
Bivins v. Wrap It Up,
Inc., 548 F.3d 1348, 1351 (11th Cir. 2008) (“An error of law is per se abuse of discretion.”).

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

APPENDIX 2

USCA11 Case: 19-11090

Date Filed: 11/17/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-11090-P
________________________
MICHAEL WILLIAM LEDFORD,
Petitioner - Appellant,
versus
WARDEN, GEORGIA DIAGNOSTIC PRISON,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: WILLIAM PRYOR, Chief Judge, NEWSOM, and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

APPENDIX 3

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 1 of 47

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTMCT OF GEORGIA
ROME DIVISION
MICHAEL WILLIAM LEDFORD,
CIVIL ACTION NO.
4:17-CV-0211-MHC

Petitioner,
V.

DEATH PENALTY
HABEAS CORPUS

ERIC SELLERS, Warden, Georgia
Diagnostic and Classification Prison,

28 U.S.C. § 2254

Respondent.

ORDER
This matter is before the Court for the final merits consideration of Petitioner
Michael William Ledford ("Petitioner" or "Ledford")'s habeas corpus petition
brought pursuant to 28 U.S.C. § 2254.

I. BACKGROUND AND FACTUAL SUMMARY
A. Procedural History

On September 25, 2007, a jury sitting in the Superior Court ofPaulding
County, Goergia, found Petitioner guilty of one count of malice murder, two counts
of felony murder, three counts of aggravated battery, one count of aggravated

sodomy, two counts of kidnaping with bodily injury, and one count of aggravated
assault. On September 30, 2007, after a sentencing trial, that same jury found that

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 2 of 47

the prosecution had proven beyond a reasonable doubt the presence of five
statutory aggravating circumstances in connection with the murder of Jennifer

Ewing and recommended that Petitioner be sentenced to death. The trial court
imposed a death sentence along with two life without parole sentences and four
twenty-year sentences, all to run consecutively.

The trial court denied Petitioner's motion for new trial on May 25, 2010.
Petitioner appealed and, in an opinion issued March 25, 2011, the Georgia
Supreme Court held that Petitioner's convictions for aggravated battery merged
with the conviction for malice murder that arose from same course of conduct but
otherwise affirmed Petitioner's convictions and sentences. Ledford v. State, 289

Ga. 70 (2011). The United States Supreme Court denied Petitioner's Petition for
Writ ofCertiorari on November 7, 2011. Ledford v. Ga, 565 U.S. 1017 (2011).
Petitioner next filed a petition for a writ of habeas corpus in state court, and,

after holding an evidentiary hearing, the Superior Court of Butts County, Georgia,
denied the petition on August 24, 2016. Ledford v. Chatman, No. 2012-V-907,

Superior Court of Butts Cty., Ga. (August 24, 2016) [Doc. 28-21] ("State HC
Order"). The Georgia Supreme Court summarily denied Petitioner's application
for a certificate of probable cause to appeal the denial of habeas corpus relief on

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 3 of 47

August 14, 2017. Order of the Georgia Supreme Court dated Aug. 14, 2017 [Doc.
28-29] denying application of probable cause to appeal the denial of habeas corpus
relief. This action followed.
B. Factual Summary
In affirming Petitioner's convictions and sentences, the Georgia Supreme

Court held that, based on the evidence presented at Petitioner's trial, the jury was
authorized to find that
on July 25,2006, Michael Ledford pretended to go to work but, instead,
bought beer and drank it near the Silver Comet Trail, a recreational trail
used for hiking, running, and other activities. Ledford knocked Jennifer
Ewing from her bicycle as she rode by his location. He dragged her a
distance off the trail to a location shielded from view by vegetation. He
stripped off all of her clothing from the waist down, and he pulled her
shirt up part way, exposing her breasts. She suffered bruises throughout

her body in the struggle. When Ledford forced his penis into her mouth,
she bit his penis and severely wounded it. Enraged by her resistance,

Ledford unleashed a shocking attack during which he stomped on her
face and nose, her larynx, and her ribs. Ms. Ewing gradually succumbed

to asphyxiation caused by her wounds and the resulting bleeding into her
lungs.

Ledford, 289 Ga. at 70.

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 4 of 47

II. LEGAL STANDARDS APPLICABLE TO PETITIONER'S CLAIMS
A. Review Under 28 U.S.C. § 2254(d)
Pursuant to 28 U.S.C. § 2254, a federal court may issue a writ of habeas
corpus on behalf of a person held in custody pursuant to a judgment of a state court
if that person is held in violation of his rights under federal law. 28 U.S.C.
§ 2254(a). This power is limited, however, because a restriction applies to claims
that have been "adjudicated on the merits in State court proceedings." Id.

§ 2254(d). Under § 2254(d), a habeas corpus application "shall not be granted with
respect to [such a] claim . .. unless the adjudication of the claim"
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as

determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
This standard is meant to be "difficult to meet," Hamngton v. Richter, 562

U.S. 86, 102 (2011), and "highly deferential," demanding "that state-court
decisions be given the benefit of the doubt," Woodford v. Visciotti, 537 U.S. 19,

24 (2002) (citation and internal quotation marks omitted), and requiring the
petitioner to carry the burden of proof, Cullen v. Pinholster, 563 U.S. 170,181

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 5 of 47

(2011) (citing Visciotti. 537 U.S. at 25). In Pinholster, the Supreme Court further
noted that

that review under § 2254(d)( 1) is limited to the record that was before the
state court that adjudicated the claim on the merits. Section 2254(d)(l)
refers, in the past tense, to a state-court adjudication that "resulted in" a
decision that was contrary to, or "involved" an unreasonable application

of, established law. This backward-looking language requires an
examination of the state-court decision at the time it was made. It
follows that the record under review is limited to the record in existence
at that same time i.e., the record before the state court.
Id. at 181-82. Similarly, the Supreme Court has held that state court decisions are

measured under § 2254(d)(l) against Supreme Court precedent at "the time the
state court [rendered] its decision." Lockyer v. Andrade, 538 U.S. 63, 71-72

(2003).
In Williams v. Taylor, 529 U.S. 362 (2000), the Supreme Court analyzed
how federal courts should apply § 2254(d). To determine whether a particular state
court decision is "contrary to" then-established law, this Court considers whether

that decision "applies a rule that contradicts [such] law" and how the decision
"confronts [the] set of facts" that were before the state court. Id. at 405-06. If the
state court decision "identifies the correct governing legal principle," this Court

determines whether the decision "unreasonably applies that principle to the facts of

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 6 of 47

the prisoner's case." Id at 413. This reasonableness determination is objective,

and a federal court may not issue a writ of habeas corpus simply because it
concludes in its independent judgment that the state court was incorrect. Id. at 410.

In other words, it matters not that the state court's application of clearly established
federal law was incorrect so long as that misapplication was objectively
reasonable. Id. C'[A]n unreasonable application of federal law is different from an
incorrect application of federal law."). "A state court's determination that a claim

lacks merit precludes federal habeas relief so long as fairminded jurists could
disagree on the correctness of the state court's decision." Richter, 562 U.S. at 101

(2011) (internal quotation marks omitted); see also Landers v. Warden. Atty. Gen.
of Ala.. 776 F.3d 1288, 1294 (11th Cir. 2015) (holding that the state court's
determination must be "objectively unreasonable."). In order to obtain habeas
corpus relief in federal court, "a state prisoner must show that the state court's

ruling on the claim being presented in federal court was so lacking in justification
that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement." Harrington, 562 U.S. at 103.

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 7 of 47

B. Entitlement to a Hearing or Discovery

Petitioner seeks evidentiary development with respect to two of his claims.
"A habeas petitioner, unlike the usual civil litigant in federal court, is not entitled
to discovery as a matter of ordinary course," Bracy v. Gramley, 520 U.S. 899, 904

(1997), and discovery and/or hearings are rarely permitted, Pinholster, 563 U.S. at
186 ("Although state prisoners may sometimes submit new evidence in federal
court, [§ 2254]'s statutory scheme is designed to strongly discourage them from
doing so.").

As mentioned above, when this Court reviews claims that have been decided
on the merits in state court, the Supreme Court has decreed that this Court's review

under § 2254 is limited to the record before the state court at the time that it
reviewed the case. Pinholster, 563 U.S. at 182. Because of this limitation, this

Court is prevented from holding an evidentiary hearing or permitting discovery in
which new evidence is introduced to support a claim that a state court has denied
unless Petitioner establishes that the state court's decision was unreasonable under

the § 2254(d) test discussed above. In other words, "before a habeas petitioner
may be entitled to a federal evidentiary hearing on a claim that has been
adjudicated by the state court, he must demonstrate a clearly established

7

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 8 of 47

federal-law error or an unreasonable determination of fact on the part of the state
court, based solely on the state court record." Landers. 776 F.3 d at 1295; see also

Pinholster, 563 U.S. at 183 ("[W]hen the state-court record precludes habeas relief
under the limitations of § 2254(d), a district court is not required to hold an
evidentiary hearing.") (internal quotation marks and citation omitted).

Because of the exhaustion requirement in § 2254(b)(l)(A), this Court
generally cannot consider claims that have not been decided on the merits in state

court. The exceptions to that rule are (1) claims that the petitioner raised in state
court but on which the state court failed to rule, see Cone v. Bell, 556 U.S. 449,

472 (2009) (noting that claims ignored by state court are subject to "de novo
review" in federal habeas corpus review), and (2) claims that the state court
deemed procedurally defaulted but where the petitioner can demonstrate cause and
prejudice to lift the resulting procedural bar in this Court, Edwards v. Carpenter,

529 U.S. 446, 451-52 (2000). With respect to those types of claims, as well as
claims where the petitioner can demonstrate error under § 2254(d), the petitioner
must further satisfy the requirements of § 2254(e)(2) before he is entitled to a
hearing or discovery. Under that subsection, a hearing may not be held unless
Petitioner shows diligence in developing the factual basis of his claim in state

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 9 of 47

court. Williams v. Taylor, 529 U.S.420, 433 (2000). He must further demonstrate

that
(A) the claim relies on—
(i) a new rule of constitutional law, made retroactive to cases on

collateral review by the Supreme Court, that was previously unavailable;
or

(ii) a factual predicate that could not have been previously
discovered through the exercise of due diligence; and
(B) the facts underlying the claim would be sufficient to establish by
clear and convincing evidence that but for constitutional error, no

reasonable factfinder would have found the applicant guilty of the
underlying offense.

28 U.S.C. § 2254(e)(2).
C. Procedurally Defaulted Claims
As discussed below, Respondent contends that one of Petitioner's claims is

procedurally defaulted. Section 2254(b)(l)(A) requires that a petitioner exhaust all
state remedies before seeking relief on a federal claim.
Exhaustion requires a state petitioner to "fairly present federal claims to
the state courts in order to give the State the opportunity to pass upon
and correct alleged violations of its prisoners' federal rights." Duncan

v. Henry, 513 U.S. 364, 365 (1995) (quotations omitted, alteration
adopted). Exhaustion is a "serious and meaningful" requirement.
Keeney v. Tamayo-Reyes, 504 U.S. 1, 10 (1992). The petitioner must
have presented the claim in a manner that affords "the State a full and

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 10 of 47

fair opportunity to address and resolve the claim on the merits." Id. A

claim is procedurally defaulted for purposes of federal habeas review "if
the petitioner failed to exhaust state remedies and the court to which the
petitioner would be required to present [the claim] in order to meet the
exhaustion requirement would now find the claim[ ] procedurally
barred." Colemanv. Thompson, 501 U.S. 722, 735 n.l (1991).

Raleigh v. Sec'y. Fla. Dep?t ofCorr, 827 F.3d 938, 956-57 (11th Cir. 2016).
A claim likewise is procedurally defaulted if it was raised in state court but
rejected by a state court pursuant to an independent and adequate state rule as

procedurally barred. See Maples v. Thomas, 565 U.S. 266, 280 (2012) ("As a rule,
a state prisoner's habeas claims may not be entertained by a federal court when (1)
a state court has declined to address those claims because the prisoner had failed to
meet a state procedural requirement, and (2) the state judgment rests on
independent and adequate state procedural grounds.") (internal alterations,

quotation marks, and citations omitted); Caniffv. Moore, 269 F.3d 1245, 1247

(11th Cir. 2001) (holding that § 2254 "claims that have been held to be
procedurally defaulted under state law cannot be addressed by federal courts.").

Adequacy of a state procedural rule is shown when it is "firmly established
and regularly followed," Siebert v. Alien, 455 F.3d 1269, 1271 (11th Cir. 2006)
(citation omitted), that is, not applied in an "arbitrary or unprecedented fashion,"

10

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 11 of 47

Judd v. Haley, 250 F.3d 1308, 1313 (llth Cir. 2001), or in an unfair manner, Ford
v. Georgia, 498 U.S. 411, 424-25 (1991). The Eleventh Circuit has concluded that
"Georgia's procedural default rule [is] firmly established and consistently
followed" and is thus an "adequate state law ground" for denying relief. Ward v.

Hall, 592 F.3d 1144, 1176 (llth Cir. 2010).
In order to overcome a procedural default, Petitioner must "demonstrate

cause for the default and actual prejudice as a result of the alleged violation of
federal law, or demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice." Coleman v. Thompson, 501 U.S. 722, 750
(1991). "For cause to exist, the external impediment, whether it be governmental

interference or the reasonable unavailability of the factual basis for the claim, must
have prevented petitioner from raising the claim." McCleskey v. Zant, 499 U.S.

467, 497 (1991). Cause may also be demonstrated by establishing that trial or
appellate counsel was ineffective in failing to properly present the claim in state
court. Martinez v. Ryan, 566 U.S. 1,11 (2012). In order to demonstrate prejudice,

a petitioner must show "not merely that the errors at his trial created a possibility of
prejudice, but that they worked to his actual and substantial disadvantage, infecting

11

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 12 of 47

his entire trial with error of constitutional dimensions." United States v. Frady,

456 U.S. 152,170(1982).
A miscarriage of justice is shown when "a constitutional violation has
probably resulted in the conviction of one who is actually innocent." Schlup v.
Delo. 513 U.S. 298, 327 (1995) (citation omitted). This standard is very difficult to
meet:

[A] substantial claim that constitutional error has caused the conviction
of an innocent person is extremely rare. To be credible, such a claim

requires [a] petitioner to support his allegations of constitutional error
with new reliable evidence - whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence
that was not presented at trial.

Id at 324 (citation omitted). "To establish the requisite probability, the petitioner
must show that it is more likely than not that no reasonable juror would have
convicted him . ..." Id, at 327.

III. DISCUSSION OF PETITIONER9 S CLAIMS FOR RELIEF
A. Abandoned Claims
In the scheduling order entered on October 20, 2017, this Court required
that, in his final brief (denoted as the "Omnibus Brief), "Petitioner must raise all
claims, issues, and arguments he wishes the Court to consider. If a matter is not in

12

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 13 of 47

the Omnibus Brief, the Court will not consider it." Order of Oct. 20, 2017 [Doc.
34] at 2. Petitioner's Omnibus Brief was filed on March 30, 2018. Pefr's Br. in
Supp. of His Pet. For Writ of Habeas Corpus [Doc. 45] ("PetYs Br."). As pointed
out by Respondent (and not disputed by Petitioner) the Omnibus Brief failed to
argue or otherwise discuss the following claims raised in the petition:
• Claim 2 (that his trial counsel rendered ineffective assistance for failing
to hire a prison adaptation expert);
• Claim 5 (that the death penalty in Georgia is imposed in an arbitrary,
capricious, and disproportionate manner);

• Claim 6 (that his trial counsel was generally ineffective);
• Claim 7 (that the trial court's malice murder instructions violated his

rights);
• Claim 8 (that the trial court erred in excusing certain members of the jury
panel for cause);
• Claim 9 (that the trial court erred in failing to excuse several jury panel
members on Petitioner's motion);

• Claim 10 (that the trial court erred in restricting voir dire);

13

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 14 of 47

• Claim 11 (that the prosecution violated Petitioner's rights as described in
Batson v. Kentucky, 476 U.S. 79, 85 (1986), by striking the sole AfricanAmerican member of the jury panel);
• Claim 13 (that the prosecution's closing argument was excessive and

prejudicial); and
• Claim 14 (that the trial court erred allowing the prosecution to present
certain victim impact evidence).

In addition, Petitioner has withdrawn his Claim 3 (that lethal injection as
practiced in Georgia violates the Eighth Amendment). Because Petitioner failed to
argue in support of these claims in his brief, this Court deems Petitioner to have
abandoned them and denies relief. At Petitioner's request, however, the denial of

relief with respect to his Claim 3 is without prejudice.
B. Claim that the State Improperly Struck Females from the Jury
In the first claim discussed in his Omnibus Brief, Petitioner contends that the
prosecution improperly exercised its peremptory strikes to remove females based
on their gender. Pet'r's Br. at 30-47. The pool ofthirty-six potential jurors from
which the jury was selected contained fifteen women. The state used nine of its
twelve strikes to remove women, but accepted six women that it could have

14

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 15 of 47

removed. At the conclusion of jury selection, trial counsel raised a challenge under

Batson, 476 U.S. at 85 (holding that criminal defendants have a right to a "jury
whose members are selected pursuant to nondiscriminatory criteria"), and J.E.B. v.

Ala,, 511 U.S. 127 (1994) (extending Batson to include gender-based
discrimination). The trial court denied the challenge regarding the removal of
female panel members after making the following observations:
[0]fthe 36 jurors who were on the first page, we had a total of 21 men
and 15 women. If my math is correct, the state struck nine women and
accepted six ... which of course on a pure percentage basis I believe
that's about 41 percent of the available jurors were women out of the first
36.

Considering the number of women available, the number of women that

the state accepted, I will not find that there is a prima facie case that has
been made out to satisfy the court that there was intentional

discrimination based on my looking at the available number of women
and men and the number of strikes the state made versus the number of
accepted jurors. So I will deny the Batson challenge or the equivalent
challenge based on gender as well.

Trial Tr. Vol. XVII [Doc. 15-12] ("Trial Tr.") at 59-60.
Petitioner raised this issue in his direct appeal, and the Georgia Supreme
Court affirmed the trial court:

15

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 16 of 47

[Petitioner] also argues that the State engaged in gender-based
discrimination in its use ofperemptory strikes. See J.E.B. v. Ala., 511

U.S. 127 (1994). The record shows that, during the selection of the panel
of 12 jurors, the State used 75 percent of the peremptory strikes it
exercised to strike women. The trial court found that [Petitioner] failed
to make a prima facie showing of discrimination and, therefore, did not
require the State to offer gender-neutral reasons for its strikes. In light
of [Petitioner]'s failure to present any "additional facts which may give
rise to an inference of discriminatory purpose," we hold that the trial
court did not err in concluding that [Petitioner] had failed to carry his
burden of establishing a prima facie case of discrimination. Whitaker v.
State. 499 S.E.2d 888 (1998) (addressing the State's use of 66 percent of
its peremptory strikes to strike women).

Ledford,289Ga.at83.
"The [United States] Supreme Court has clearly established a three-step
process for deciding whether a Batson violation has occurred." Madison v.
Comm'r. Ala. Dept. Corr., 761 F.3d 1240, 1242 (11th Cir. 2014). That three-part
test is:

First, the defendant must make out a prima facie case by showing that the
totality of the relevant facts give rise to an inference of discriminatory
purpose. Second, once the defendant has made out a prima facie case,

the burden shifts to the State to explain adequately the [gender based]
exclusion by offering permissible [gender]-neutral justifications for the
strikes. Third, if a [gender]-neutral explanation is tendered, the trial
court must then decide . .. whether the opponent of the strike has proved

purposeful [] discrimination.

16

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 17 of 47

Johnson v. CaL, 545 U.S. 162, 168 (2005) (internal quotation marks and citations
omitted).
Petitioner contends that the Georgia Supreme Court's holding was contrary
to or an unreasonable application ofBatson and J.E.B. because the state court

required that, in order to establish an inference of discriminatory purpose,
Petitioner had to do more than point to the pattern of strikes and present additional
facts which may give rise to an inference of a discriminatory purpose. Petitioner
further asserts that he is entitled to a hearing to further develop the evidentiary
basis of this claim. This Court disagrees.

According to the Eleventh Circuit, "statistics, without more, do not establish
a prima facie case" of discrimination in the use ofperemptory strikes. United
States v. Hill. 643 F.3d 807. 838 fl 1th Cir. 2011). In United States v. Campa, 529
F.3d 980 (11th Cir. 2008), the Eleventh Circuit confronted a case in which the
government used seven of nine strikes (seventy-eight percent) to remove black
jurors. Id. at 989. However, the sixteen members of the jury that was seated

(including four alternates) included four blacks (twenty-five percent). Id. The

The trial court initially selected four alternates, but one juror was excused prior to
the trial. United States v. Campa, En Banc Br. for the United States at 15 & n. 19,

2001 WL 35796651 (llth Cir. 2001).
17

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 18 of 47

district court "ruled implicitly" that the defendants had established a prima facie
case of racial discrimination, but the Eleventh Circuit concluded that the
defendants did not establish a prima facie case because "the government did not
attempt to exclude as many black persons as it could from the jury," and the jury including alternates - included four blacks. Id at 998. See also Cent. Ala. Fair

Hous. Ctr.. Inc. v. Lowder Realty Co, 236 F.3d 629, 638 (11th Cir. 2000) ("[T]he
unchallenged presence of jurors of a particular race on a jury substantially weakens
the basis for aprimafacie case of discrimination in the peremptory striking of
jurors of that race."); United States v. Puentes, 50 F.3d 1567, 1578 (11th Cir. 1995)
("Although the presence of African-American jurors does not dispose of an
allegation ofrace-based peremptory challenges, it is a significant factor tending to
prove the paucity of the claim."); United States v. Allison, 908 F.2d 1531, 1537
(11th Cir. 1990) ("[T]he unchallenged presence of three blacks on the jury
undercuts any inference of impermissible discrimination that might arise simply by
the striking of other blacks.").

2 In United States v. Ochoa-Vasquez. 428 F.3d 1015,1046 n.41 (11th Cir. 2005), the
Eleventh Circuit noted that, in considering a Batson/J.E.B. claim, alternate jurors must
also be considered.

18

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 19 of 47

In Petitioner's case, the state did not strike six of the women that it could
have, and, including alternates, four women served on the jury of fourteen (twenty-

nine percent). Accordingly, based upon the Eleventh Circuit's decision in Campa,
this Court does not find that the Georgia Supreme Court was unreasonable in its
application of the United States Supreme Court's Batson and J.E.B. decisions in
concluding that Petitioner had failed to establish a prima facie case of gender
discrimination.
Moreover, the Eleventh Circuit has held that, when it reviews a Batson
challenge, it gives "great deference to a district court's finding as to the existence

ofsiprima facie case." United States v. Allen-Brown, 243 F.3d 1293, 1296 (llth
Cir. 2001) (internal quotation marks and citation omitted). Given the deference
afforded to the Georgia Supreme Court's determination under § 2254(d), this Court
concludes that Petitioner is not entitled to relief because "fairminded jurists could
disagree on the correctness of the state court's decision." Richter, 562 U.S. at 101

(2011) (internal quotation and citation omtited). As discussed above, because
Petitioner has failed to establish that he is entitled to relief under § 2254(d), this
Court is prevented from holding a hearing or permitting discovery related to this
claim. Pinholster, 563 U.S. at 182.

19

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 20 of 47

C. Petitioner's Claim of Ineffective Assistance of Trial Counsel
1. Legal Standard
Petitioner next contends that his trial counsel rendered ineffective assistance
by presenting evidence of Petitioner's antisocial personality disorder/psychopathy
during the penalty phase of his trial. Pet'r's Br. at 48-117. The standard for
evaluating claims of ineffective assistance of counsel is set forth in Strickland v.
Washington, 466 U.S. 668 (1984). The analysis is two-pronged, and the court may
"dispose of ineffectiveness claims on either of its two grounds." Atkins v.

Singletary. 965 F.2d 952. 959 (11th Cir. 1992}: see also Stnckland, 466 U.S. at 697
("[T]here is no reason for a court deciding an ineffectiveness assistance claim . . .

to address both components of the inquiry if the defendant makes an insufficient
showing on one.").

Petitioner must first "identify the acts or omissions of counsel that are
alleged not to have been the result of reasonable professional judgment" and show

that "in light of all the circumstances, the identified acts or omissions were outside
the wide range of professionally competent assistance." Strickland, 466 U.S. at
690. The court must be "highly deferential" to counsel's performance and must
"indulge a strong presumption that counsel's conduct falls within the wide range of

20

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 21 of 47

reasonable professional assistance . ..." Id. at 689. "Given the strong

presumption in favor of competence, the petitioner's burden ofpersuasion-though
the presumption is not insurmountable -is a heavy one." Fugate v. Head, 261 F.3d

1206, 1217 (11th Cir. 2001) (citation omitted). As the Eleventh Circuit has stated,
The test has nothing to do with what the best lawyers would have done.
Nor is the test even what most good lawyers would have done. We ask
only whether some reasonable lawyer at the trial could have acted, in the
circumstances, as defense counsel acted at trial. Courts also should at the
start presume effectiveness and should always avoid second guessing

with the benefit of hindsight. Strickland encourages reviewing courts to
allow lawyers broad discretion to represent their clients by pursuing their
own strategy. We are not interested in grading lawyers' performances;
we are interested in whether the adversarial process at trial, in fact,
worked adequately.

White v. Singletary. 972 F.2d 1218, 1220-21 (11th Cir. 1992) (citation omitted).
Rather, the inquiry is whether counsel's action was "so patently
unreasonable that no competent attorney would have chosen it." Kelly v. United

States. 820 F.2d 1173, 1176 (11th Cir. 1987) (citation omitted). Courts must
"allow lawyers broad discretion to represent their clients by pursuing their own
strategy," White, 972 F.2d at 1221, and must give "great deference" to reasonable
strategic decisions, Dingle v. Sec'y for Dep't of Con-., 480 F.3d 1092,1099 (11th
Cir. 2007). "When courts are examining the performance of an experienced trial

21

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 22 of 47

counsel, the presumption that his conduct was reasonable is even stronger.

Chandler v. United States, 218 F.3d 1305, 1316 (11th Cir. 2000) (footnote and
citation omitted).
As discussed below, the state habeas corpus court determined that

Petitioner's trial counsel was not deficient in presenting expert mental health
testimony during the penalty phase of Petitioner's trial. The Court's review of that
conclusion by the state court is "thus doubly deferential," under which this Court
takes a "highly deferential look at counsel's performance [under] Strickland . . .

through the deferential lens of § 2254(d)." Pinholster, 563 U.S. at 190 (internal
quotation marks and citation omitted).
To meet the second prong of the Strickland test, Petitioner must demonstrate
that counsel's unreasonable acts or omissions prejudiced him. Strickland, 466 U.S.

at 691-92. That is. Petitioner "must show that there is a reasonable probability that,
but for counsel's unprofessional errors, the result of the proceeding would have

been different. A reasonable probability is a probability sufficient to undermine
confidence in the outcome," id. at 694, requiring "a substantial, not just

conceivable, likelihood of a different result." Pinholster, 563 U.S. at 189 (internal
quotation marks and citation omitted).

22

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 23 of 47

2. Discussion of Petitioner's Ineffective Assistance Claim
According to Petitioner, trial counsel presented mental health expert
testimony that characterized Petitioner as antisocial and a psychopath, which
allowed the prosecutors to present their own mental health experts "whose

testimony methodically attributed each and every aggravating characteristic of
these disorders to" Petitioner. Pet'r's Br. at 48. Petitioner contends that trial
counsel could have presented evidence of Petitioner's "abusive and harrowing
upbringing" through witnesses other than mental health experts - such as a
forensic social worker - without opening the door to the evidence that the State
would exploit in portraying him as a "relentless predator incapable of remorse or
penance." Id. at 49.

Petitioner contends that the testimony of two mental health experts presented
by trial counsel was particularly damaging. Dr. Thomas Sachy, a forensic
neuropsychiatrist, examined a magnetic resonance image of Petitioner's brain and

testified that Petitioner's frontal and temporal lobes had suffered damage,
presumably when he fell from a tree as a child. Trial Tr. Vol. XXVI [Doc. 16-7] at
250-60. Sachy informed the jury that Petitioner's brain damage left him unable to
control his anger, prone to violence, and lacking empathy. Id. at 254-56. Dr.

23

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 24 of 47

Robert Shaffer, a neuropsychologist, administered psychological tests that
confirmed Sachy's finding of damage to the frontal and temporal lobes of
Petitioner's brain. He further concluded that Petitioner was a "sexual sadist" and a

psychopath. Trial Tr. Vol. XXVII [Doc. No. 16-8] at 94, 101. Shaffer also
described psychopaths as individuals who lack emotional reactions. Id. at 101.
The prosecution presented mental health experts who disagreed with Sachy's
and Shaffer's diagnosis of brain damage, id. at 282-85, and testified that Petitioner
was a psychopath who is driven to meet his own needs and satisfy his desires
without attempting to conform to societal rules or norms or the rights and feelings
of others. Id at 218. The prosecution experts further testified that psychopathy
does not influence the ability of the psychopath to make choices; psychopaths are
controlled and able to change their behavior as needed in order to avoid getting
caught. Id, at 222-23.
Petitioner's psychopathy was a recurring theme of the prosecutor's closing
argument at the conclusion of the penalty phase of the trial. The prosecutor
repeatedly argued that, because Petitioner is a dangerous psychopath, the jury
should not impose a life sentence. See, e.g., Trial Tr. Vol. XXVII [Doc. 16-9] at
41-42.

24

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 25 of 47

In denying relief with respect to Petitioner's claim that trial counsel was
deficient in presenting evidence of Petitioner's psychopathy, the state habeas
corpus court first provided an extensive and thorough review of trial counsel's

extensive investigation, State HC Order [Doc. 28-21] at 15-21, and the evidence
presented during the penalty phase of the trial, id. at 26-58. This Court will not
repeat that entire discussion here, but significant to this Court's analysis is the
evidence of aggravating circumstances presented by the state.

During the guilt phase of the trial, the medical examiner testified that
Jennifer Ewing was savagely beaten, leaving her face disfigured. Petitioner landed
five to ten blows to Ms. Ewing's face that caused both of her eyes to swell shut and
lacerated the skin of her face in three places down to the bone. Trial Tr. Vol. XX
1

[Doc. 16-1] at 143-44. Petitioner crushed her nose, id at 144, and struck the top
and sides of her head at least eighteen to twenty times, id. at 187, causing several
hemorrhages in her brain, id. at 188-90. Petitioner also crushed her larynx when he
hit or kicked her on the side of the neck. Id. at 196-200. Ms. Ewing's arms were

extensively bruised, indicating that she tried to shield her head as Petitioner
repeatedly beat or kicked at her head. Id. at 157-58.

25

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 26 of 47

The medical examiner also testified that he discovered extensive bruising on
Ms. Ewing's legs from where Petitioner repeatedly stomped on her. Id.at 165-67.
Her most extensive injuries were the result of Petitioner's stomping on her

abdomen and chest several times, likely when she was lying on the ground,
breaking nine of her ribs and causing a tear in her liver as well has puncturing and
collapsing her lung, id. at 147-51, 205-07. Ms. Ewing was still alive when all of
these injuries occurred.
Because of her broken nose - which would have caused bleeding down her
throat - her crushed larynx, her crushed chest, and her collapsed lung, Ms. Ewing

had a great deal of trouble breathing. Id at 214. The medical examiner estimated
that, after Petitioner finished beating her, she survived for fifteen to thirty minutes
until she died from asphyxiation because of her inability to properly inhale. Id. at
214-15.

During the penalty phase, the prosecution also presented evidence that
Petitioner preyed on women throughout his life. In 1980, Petitioner, wielding a
gun, approached a woman who was sitting in her car at a convenience store and,
along with two other men, kidnaped and robbed her. Trial Tr. Vol. XXIV [Doc.
16-5] at 46. In 1985, Petitioner had tried to force his way into a woman's home,

26

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 27 of 47

and when she would not let him in, he threw a rock through her window; the police
arrived before he could enter the home. Id. at 78-80. In 1991, he accosted a
woman in the woods and raped her. Trial Tr. Vol. XXII [Doc. 16-3] at 88-91.

In 2002, when Petitioner was living with his brother and sister-in-law, he
entered a neighbor's house and attacked the woman who lived there. Trial Tr. Vol.

XXIV [Doc. 16-5] at 69. He grabbed her and told her not to scream or he would
hurt her children. Id.. She screamed anyway, and Petitioner's sister-in-law, who
had heard the screams, entered the house and convinced Petitioner to leave. Id. at
69-70. Other witnesses recounted Petitioner's improper sexual behavior towards
women and children, and prosecutors played recordings of sexually explicit

telephone discussions that Petitioner had with his fourteen-year-old niece while
Petitioner was in jail awaiting his murder trial. Id. at 89-90.
Based on its analysis of trial counsel's case in mitigation in comparison to
the case in aggravation presented by the state, the state habeas corpus court
concluded that trial counsel was not deficient:

This Court finds that trial counsel's presentation of evidence in
mitigation was reasonable, particularly in light of counsel's thorough
investigation of Petitioner's background, including his mental health,
sexual abuse, and substance abuse. Based on that investigation, counsel
made reasonable strategic choices. "It is well established that the

27

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 28 of 47

decision as to which defense witnesses to call is a matter of trial strategy
and tactics." Humphrey v. Nance, 293 Ga. 189, 220 (2013) (citation
omitted). Furthermore, "strategic choices made after thorough

investigation of law and facts relevant to plausible options are virtually
unchallengeable." Strickland, 466 U.S. at 690.

Petitioner claims that trial counsel5 s strategic decision to elicit testimony
that Petitioner was antisocial and a psychopath was not reasonable
because it "effectively provided evidence in aggravation rather than
mitigation." Petitioner argues that trial counsel should have presented

the testimony of a forensic social worker such as Mary McLaughlin
instead to prevent the testimony that Petitioner is antisocial and/or a
psychopath from being introduced. At the evidentiary hearing Petitioner
presented Ms. McLaughlin, who testified that she completed an
assessment of Petitioner during habeas proceedings. ... This Court finds

that the majority of Ms. McLaughlin's testimony is cumulative of the
testimony presented at Petitioner's trial.
Furthermore, trial counsel's decision to elicit testimony from Petitioner's

mental health experts that Petitioner was antisocial and a psychopath
before the State's mental health experts presented those same
conclusions to the jury during their rebuttal testimony was reasonable.

Although [trial counsel] could not specifically recall why he questioned
Dr. Shaffer about psychopathy, he stated "I'm sure there was a reason at

that particular point in time, but maybe because of the fact that the State
was going to argue that, so we wanted to try to get that out. .. and let the
doctor explain that's not something that you wake up and decide you
want to be." This demonstrates counsel's reasonable decision to
"preempt any effort by the prosecution to prove the same thing." Morton

v. Sec'y. Fla. Dep't of Corr., 654 F.3d 1157, 1169 (llth Cir. 2012)
(citation omitted). This is "the sort of calculated risk that lies at the heart
of an advocate's discretion." Yarborough v. Gentry, 540 U.S. 1, 9

(2003).

28

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 29 of 47

Counsel knew that the State would present highly aggravating evidence
of the victim's murder to the jury. Counsel was also aware that despite

attempts to limit the introduction of similar transactions, the jury would
learn about Petitioner's numerous attacks against women, in some

instances through the testimony of the victims themselves. Additionally,
despite vigorously challenging the introduction of Petitioner's recorded
telephone calls from the prison, the trial court ruled during the State's
presentation of aggravation at sentencing that the tapes would be
admitted and played to the jury. In light of this aggravating evidence,
counsel chose to present expert mental health witnesses to support
counsel's argument that Petitioner's behavior was so uncontrollable that
it must be involuntary and the result of brain damage, and attempt to
counter the State's experts' testimony by presenting the worst of the
diagnoses themselves.

Counsel's investigation had revealed a wealth of mitigating evidence.
[Lead counsel] instructed the defense team to focus on documents and
witnesses that would explain Petitioner's mental, alcohol, and sexual
issues. However, in addition to the lay witness and fact witness

testimony about Petitioner's social history and his history of physical,
emotional, sexual, and substance abuse, counsel could have reasonably

decided that the additional presentation of expert mental health evidence
provided their client's best chance to avoid a death sentence. Different

lawyers will evaluate these risks differently as "[e]ven the best criminal
defense attorneys would not defend a particular client in the same way."
Strickland. 466 U.S. at 689.

Counsel representing defendants convicted of capital murder, like
counsel here, face difficult sentencing decisions. Here, trial counsel's

strategy was to "explain how someone could do what [Petitioner] did[,]"
which they thought could best be done through expert mental health

29

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 30 of 47

testimony. Unfortunately, as is often the case with individuals who have
committed crimes like those of Petitioner, this mental health evidence
will almost certainly have aggravating components. However, counsel

considered their options and felt that the testimony of mental health
experts could be more mitigating than aggravating.
When the record is viewed as a whole, trial counsel's decision to present

expert mental health testimony, including evidence of antisocial
personality disorder and psychopathy, was reasonable, and Petitioner has
not demonstrated any deficient performance.

State HC Order [Doc. 28-21] at 59-64 (footnotes and citations to the court record
omitted).
In response to Petitioner's contention that presenting evidence of

psychopathy is deficient as a matter of law, the state court relied upon Morton
where the Eleventh Circuit considered the very question presented here by
Petitioner - whether counsel is deficient for presenting expert testimony that the
defendant is a psychopath during the penalty phase of a capital trial:
Morton argues that [his trial counsel] rendered deficient performance
when they called [a mental health expert] to testify at the retrial of the
penalty phase because antisocial personality disorder "is no more

mitigating than being 'evil' is mitigating," but we disagree. Habeas
petitioners routinely ask us to rule that they received ineffective
assistance when their trial lawyers failed to present evidence of an

antisocial personality disorder, so [trial counsel] chose a mitigation
strategy that many postconviction lawyers contend can be effective.

Although we have stated that evidence ofantisocial personality disorder
is "not 'good' mitigation," Reed [v. Sec'y. Fla. Dept. ofCorr.], 593 F.3d

30

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 31 of 47

[1217,] 1246 [(llth Cir. 2010)], we have never ruled that a capital
defense lawyer renders ineffective assistance as a matter of law when he

introduces evidence of antisocial personality disorder for mitigation
purposes. And for good reason. In Eddings v. Oklahoma, the Supreme

Court of the United States explained that "the Eighth and Fourteenth
Amendments require that the sentencer . . . not be precluded from
considering, as a mitigating factor, any aspect of a defendant's character

or record and any of the circumstances of the offense that the defendant
proffers as a basis for a sentence less than death." 455 U.S. 104, 110

(1982) (quoting Lockett v. Ohio, 438 U.S. 586, 604 (1978)) (alteration
and emphasis in original) (internal quotation marks omitted). And the
Supreme Court ruled that a sentencing court violated the constitutional

rights of the defendant by failing to consider expert testimony that the
defendant had an "antisocial personality." Id. at 107-08.
In the light ofEddings. there cannot be aper se rule that a lawyer renders
ineffective assistance by presenting evidence of an antisocial personality
disorder for purposes of mitigation. . . . That a diagnosis of antisocial
personality disorder has negative characteristics or presents a

double-edged sword renders it uniquely a matter of trial strategy that a
defense lawyer may, or may not, decide to present as mitigating
evidence.

Morton. 684 F.3d at 1167-68 (citations omitted).
In arguing that the state court order is not entitled to deference under

§ 2254(d), Petitioner first contends that the state court "misapprehended" his claim.
Pet'r's Br. at 96. Petitioner's claim is that trial counsel was deficient in presenting

evidence of Petitioner's mental health and in opening the door to the prosecution to
present its own expert mental health testimony. This claim is premised on his

31

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 32 of 47

erroneous contention that evidence of antisocial personality disorder or

psychopathy can never be mitigating.
Petitioner contends that the state court missed the mark by devoting "the
bulk of its analysis to detailing the investigation undertaken by trial counsel and
the mental health testimony presented by trial counsel at trial, as if to rebut a
contention - never made ~ that each was wanting." Id. This Court disagrees with
Petitioner's characterization of the state court's analysis. As the state court pointed

out, the United States Supreme Court stated in Strickland that "strategic choices
made after thorough investigation of law and facts relevant to plausible options are
virtually unchallengeable." Strickland, 466 U.S. at 690. The state habeas corpus
court, in its thorough review of trial counsel's investigation of mitigating evidence,

established that the investigation was reasonable and that trial counsel's strategic
decisions made based on that investigation were also reasonable.
Petitioner next argues that the state court opinion improperly requires a
nexus between mitigation evidence and the offense. According to Petitioner, the
state court's

Order holds that if trial counsel had "foregone the expert testimony of
Petitioner's mental health issues," Mr. LedforcTsjury "would not have
heard any plausible explanation for Petitioner's crimes, or for his deviant

32

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 33 of 47

behavior . ..." The Order concludes that "[w]ithout Dr. Morton's
testimony about Petitioner's alcohol abuse, Dr. Morris5 testimony about
Petitioner's sexual abuse, and the testimony ofDrs. Sachy and Shaffer

about Petitioner's brain damage, the jury would have been left even more
puzzled." The foundational error in this analysis is that mitigating
evidence is not truly mitigating unless a line can be drawn between it and
the crime. This contravenes Supreme Court precedent holding precisely
to the contrary. Tennard v. Dretke, 524 U.S. 274,287 (2004) (mitigating
evidence need not have to have a nexus to the crime). It also fails to

grapple with the deficiencies of the testimony claiming that Mr. Ledford
suffered brain damage - which was suspect, unsupported by the medical
records of the accident that supposedly caused Mr. Ledford' s head injury,
and flatly contradicted by the State's experts. Nor does it contend with

the aggravating impact of Mr. Ledford's purported brain damage, which
the defense experts testified would make him "more likely .. .to do bad
things compared to normal people," Doc. No. 16-7 at 264, and to exhibit

"impulsive, explosive behavior that violates the rights of other people
without seeming to have much regard for those people," Doc. No.16-8
at 102. In sum, there is no reasonable basis for finding no deficiency or
no prejudice in trial counsel's presentation of mental health testimony

that was unsupported by the evidence and affirmatively harmful.
Pet'r's. Br. at 98-99 (footnote and citations omitted).
Petitioner has again mischaracterized the state court order. Rather than
requiring that there be a nexus between the mitigation evidence and the crime, the

state court merely pointed out that the mental health evidence enabled trial counsel
to argue to the jury that there were reasons behind Petitioner's crimes and his other
deviant behavior and that those reasons were beyond Petitioner's control. Trial
counsel testified at the state habeas corpus hearing that they realized that evidence

33

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 34 of 47

of Petitioner's antisocial personality disorder was "not really mitigating," indeed
that it was "a pretty negative thing." State Habeas Corpus Hr'g Tr. [Doc. 20-38] at
163. Nevertheless, trial counsel made the strategic decision to present the evidence
because it explained Petitioner's conduct and hopefully lessened his culpability in
the opinion of the jury because Petitioner's mental disorder was not something that
he chose to have. Id. at 163-64.

This Court further disagrees with Petitioner's argument that there was no
support for the mental health experts' diagnosis of a head injury. The evidence
presented at the trial was that in 1972 Petitioner fell from a tree that Petitioner's
brother estimated was fifty feet high. Trial Tr. Vol. XXV [Doc. 16-6] at 168.
When Petitioner landed, he was not moving and appeared unconscious. Id. at 169.

Petitioner remained in the hospital for a month and, after the accident, Petitioner's
behavior had changed. Id. at 173.

This Court acknowledges that Petitioner's medical records from the incident
do not include a diagnosis of a head injury and that the prosecution argued that fact
to the jury. However, those records reflect that Petitioner was given anti-seizure
medication and was speaking incoherently for several days. As one of Petitioner's

34

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 35 of 47

experts testified, Petitioner "obviously suffered from some form of brain damage"

as a result of the fall. Trial Tr. Vol. XXVI [Doc. 16-7] at 260-61.
Petitioner is simply wrong in contending that the state habeas corpus court

applied the wrong prejudice standard under Strickland. See Pet'r's Br. at 100. The
state court correctly identified the "reasonable probability" standard described in
Strickland, State HC Order [Doc. 21-28] at 13, and then applied that standard in
concluding that Petitioner had failed to demonstrate prejudice, id., at 14, 66, 68,69.
Petitioner also contends that the Eleventh Circuit's opinion in Morton does
not foreclose relief. As discussed above, the Eleventh Circuit held in Morton that
there is no per se rule that evidence of an antisocial personality disorder is always
aggravating and that Morton's trial counsel's decision to present such evidence
was a matter of reasonable trial strategy. See Morton, 684 F.3d at 1167-68.

Petitioner first argues that the United States Supreme Court's opinion in Buck v.
Davis, 137 S. Ct. 759 (2017), which was issued after Morton, "underscored the
damage cause [sic] by the introduction of aggravating evidence from the
defendant's own counsel." Pet'r's Br. at 110. In Buck, the Court held that trial
counsel was ineffective for eliciting testimony from an expert witness on future
dangerousness that Buck's race (African-American) would make him more likely

35

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 36 of 47

to commit violent acts. Buck, 137 S. Ct. at 775. Petitioner contends that his

antisocial personality disorder is an immutable characteristic akin to Buck's race
and that his trial counsel was equally ineffective for presenting evidence of the
disorder to the jury during his trial. However, the racial distinction in Buck - that
African-Americans are more likely to be violent - is inherently suspect and clearly
antagonistic to decades of constitutional jurisprudence. Evidence of Petitioner s
mental state at the time he committed his crimes does not implicate similar
concerns.

As to Petitioner's criticism of the Eleventh Circuit's analysis in Morton,
including the Eleventh Circuit's reliance on the United States Supreme Court's
opinion in Eddings v. Oklahoma for the proposition that "there cannot be a per se
rule that a lawyer renders ineffective assistance by presenting evidence of an
antisocial personality disorder for purposes of mitigation," Pet'r's Br. at 110-14,

this Court is in no position to "overrule" a holding of the Eleventh Circuit. "The
law of this circuit is 'emphatic5 that only the Supreme Court or this court sitting en
banc can judicially overrule a prior panel decision." Cargill v. Turpin, 120 F.3d

1366, 1386 (llth Cir. 1997) (citation omitted).

36

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 37 of 47

Petitioner also distinguishes Morton by noting that Morton was challenging
his trial counsel's presentation of evidence of his antisocial personality disorder at
a resentencing hearing after the mental health expert had already testified about it
during the original penalty phase ofMorton's first trial. Pet'r's Br. at 115-16.
Accordingly, Morton's prosecutors already knew about the diagnosis and would
have brought it up regardless of whether Morton's trial counsel presented the
evidence. While this might be a material distinction if the Eleventh Circuit had
relied solely on that fact in denying relief, it is clear that the court also held more
broadly that trial counsel can, as a matter of reasonable trial strategy, present

evidence of their client's antisocial personally disorder during the penalty phase of
a capital trial without running afoul of Strickland.
This Court agrees with Petitioner that the Eleventh Circuit's holding in
Morton does not entirely preclude relief. Pet'r's Br. at 116. Certainly there could

be circumstances in which a trial counsel could be adjudged ineffective for
presenting evidence ofpsychopathy or antisocial personality disorder during the
penalty phase of the trial, but in this case this Court agrees with the state court that
Petitioner's trial counsel was not constitutionally ineffective during the penalty
phase of his trial. It is undisputed that trial counsel's investigation into Petitioner's

37

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 38 of 47

background was thorough. Based on that investigation and in light of the
substantial aggravating evidence that trial counsel knew that the prosecution was
planning to present to the jury, as well as the truly horrific circumstances of the
murder that the jury already knew about, trial counsel reasonably determined that
they needed to present evidence to the jury that might explain why Petitioner
committed such horrible acts. They knew that the evidence was not necessarily
good evidence, but they believed that it presented their best chance at securing a
life sentence for Petitioner. Trial counsel made a reasonable strategic decision

when presented with the nearly insurmountable task of evoking sympathy for their
very unsympathetic client.

As the Eleventh Circuit noted in Morton, post conviction counsel routinely
argue that such evidence can be effective mitigation. Morton, 684 F.3d at 1168.
As a result, it cannot be said that no competent counsel would have presented such

evidence, Kelly v. United States, 820 F.2d 1173, 1176 (11th Cir. 1987), especially
considering the circumstances at Petitioner's trial.

Although it is not necessary to the resolution of Petitioner's claim, this Court
deems it worthwhile to briefly discuss the evidence Petitioner presented at the state
habeas corpus hearing regarding Petitioner's background. In his Omnibus Brief,

38

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 39 of 47

Petitioner discusses this evidence at length. Pet'r's Br. at 81-93. Briefly

describing the evidence, when Petitioner was a child, his family was poor, and
moved frequently - so much so, that he attended at least ten different schools

before he dropped out in the ninth grade. Most of Petitioner's family abused
alcohol or other substances, Petitioner began drinking at age twelve, and
Petitioner's parents tolerated and even enabled his alcohol consumption at a young
age.

Members of Petitioner's family sexually molested Petitioner's siblings/
Petitioner's mother frequently struggled to provide adequate food for her children.
On at least three occasions, Petitioner and his siblings were placed in foster homes
for brief periods, once when Petitioner's mother had a nervous breakdown and on
other occasions when Petitioner's mother could not afford to properly care for the

children. Petitioner's mother and the various men in Petitioner's childhood life
frequently beat Petitioner.

3 According to Petitioner, he related "incidents of sexual abuse" as a child, but that

may be limited to his contention that his grandfather "would make him take naps with
him in the nude." Pet'r's Br. at 82. Apparently, Petitioner engaged in acts of incest

with his siblings, and Petitioner's sister was repeatedly raped for a period of years by
her uncle.

39

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 40 of 47

This Court stresses however, that Petitioner does not assert that trial counsel
missed this evidence. See Pet'r's Br. at 97. Indeed, as the state habeas corpus

court found, the jury heard the evidence through the testimony of Petitioner's
siblings and mental health experts. See State HC Order [Doc. 28-21] at 61 (finding
that the evidence of Petitioner's background presented at the state habeas corpus
hearing was "cumulative of the testimony presented at Petitioner's trial."). Rather,

Petitioner discusses the evidence of his background in relation to his claim that
trial counsel could have presented it without calling mental health experts and
opening the door to testimony regarding Petitioner's psychopathy. Because this
Court has already determined that trial counsel was not deficient in presenting the
mental health expert testimony, Petitioner's argument is unpersuasive.

Accordingly, this Court concludes that Petitioner has failed to establish that
he is entitled to relief with respect to his claim of ineffective assistance of counsel.
D. Petitioner's Claim of Juror Misconduct
Sometime after Petitioner's trial, H.R., a member of the jury that convicted
and sentenced Petitioner, wrote about his experiences as a juror on what appears to
be an internet discussion fomm. A printed version of what H.R. said on that forum
is an exhibit from the state habeas corpus proceeding. App. A to Pet'r's Resp. to

40

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 41 of 47

Resp't's Mot. to Quash Juror Subpoenas in Butts Cty. Superior Ct. [Doc. 20-34] at

8-12. It appears, but is impossible for this Court to know with certainty, that the
exhibit contains only selected excerpts from the discussion. In the exhibit, there
are comments from other participants in the forum, but whoever assembled the

exhibit may have removed some of the comments from other participants. This
Court further does not know whether all or only some ofH.R/s statements from

the forum appear in the exhibit.
As best as this Court can determine, H.R. wrote the following comments that

appear in the exhibit:
OK . . . as I explained to my fellow jurors ... we had two choices . . .

either life In [sic] prison without parole, or death. Michael's attorneys
admitted that he did the murder but that he should be sentenced to life in
prison. That is what Michael wanted.
Michael Ledford had spent about one half of his life in prison or jail. .
. he knew how to play the system ... he was an alcoholic and had

admitted in written testimony that he could easily get alcohol and drugs
while in prison.
I told the jurors if sentenced to life in prison he'd be put in the general
population and given the following:
3 meals a day

TV
Access to an exercise facility
Access to a prison store
Access to a library

41

A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 42 of 47

Access to a computer and internet access
and several other things.

He even admitted in a taped interview that he'd have no problem 'going

gay \
It's a proven fact that many people who have been incarcerated for long

periods actually prefer life in prison to life on the 'outside'. This may
well be the case for Ledford.
Ledford knew that he was facing either life in prison or death . . . after

the trial the DA told us he had tried to plea bargain for life in prison but
the DA wouldn't do it on behalf of the Ewing family.
So I pointed out to the jury that by giving life in prison to Ledford we
were giving him exactly what he wanted . . . and that I myself could not

sleep soundly at night knowing that I had given a man convicted of
malice murder the exact sentence he wanted and that the only just
punishment was the death penalty.

Id. at 8-9 (ellipses in original).
In a later comment, H.R. wrote:

One thing I will say that did bug me about the jury deliberations is that
there were several Christians on the jury including a Deacon. They
seemed to take it for granted that we were all Christians and pretty much
demanded that we all participate in a prayer before we started either
deliberations ... I find that kind of offensive.

IcL at 10 (ellipses in original).

H.R.'s internet forum writing style employs ellipses as a form ofpunctuation.

42

A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 43 of 47

Still later, in response to a question regarding whether he was able to gauge
how the other jurors felt about the case, H.R. wrote:
No, I didn't event try to gauge them ... it's funny, the young guy and

the woman who voted for life in prison were probably the two jurors I
grew closest to during the trial.. .he's an EMT.. . very liberal.. . hated
Bush, but we got along great. . . she's a school teacher at a Christian
Academy, never found out about her politics, but for some reason we just

hit it off; but I never did try to find out how they felt about the death
penalty, I didn't know until they let us know they were the two who
voted for life in prison.
Id at 11 (ellipses in original). In response to a question regarding how much he
had thought and read about the death penalty before or during the trial, H.R. wrote:
Before the trial I had read articles that are both pro and anti-death penalty
... I was prohibited from doing so during the trial. . . though as a juror

who had the responsibility of either sentencing a man to life in prison or
death, I gave it considerable thought and any prudent juror should.

Id at 12 (ellipses in original).
According to Petitioner, these comments - in particular, H.R.'s comment that

"the only just punishment was the death penalty" - demonstrate that (1) H.R. lied
during voir dire when he said that he could consider all possible sentences, and (2)
H.R. was not impartial. Pet'r's Br. at 123. Petitioner also seeks a hearing to further
develop the evidentiary basis of this claim. Id. at 124. The state habeas corpus
court concluded that this claim was procedurally defaulted under state law because

43
A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 44 of 47

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 45 of 47

misconduct does not fall 'outside the wide range of professionally competent

assistance'" (quoting Strickland, 466 U.S. at 690). Petitioner has failed to point to
anything that should have alerted trial counsel to the fact that a viable misconduct
claim existed.
Finally, notwithstanding Petitioner's arguments to the contrary, H.R.'s
internet forum posts do not indicate that H.R. engaged in misconduct. There is
nothing in H.R.'s statements, quoted above, that indicate that he had any

preconceived opinion prior to hearing the evidence that Petitioner should receive
the death penalty. It is clear from the context ofH.R/s statements that he based his

opinion that "that the only just punishment was the death penalty" on the evidence,
specific to Petitioner, presented at the trial. H.R. also stated that he had considered
the issue of whether the death penalty was a proper punishment and, "as a juror

who had the responsibility of either sentencing a man to life in prison or death, I
gave it considerable thought and any prudent juror should." As found by the state
habeas corpus court, H.R.'s statements do not indicate that H.R. was not open to
considering a life sentence prior to hearing the evidence. Ledford v. Chatman, No.

2012-V-907, Superior Ct. of Butts Cty, Ga. (March 11, 2014) [Doc. 20-37] at 3.

45
A072A
(Rev.8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 46 of 47

This Court thus concludes that there is no indication that misconduct occurred, and

Petitioner cannot establish prejudice to excuse the procedural default of this claim.
As Petitioner has demonstrated neither cause nor prejudice to overcome the

default of his claim, this Court further concludes that he is not entitled to an
evidentiary hearing under the standard discussed above.

IV. CONCLUSION
For the foregoing reasons, this Court concludes that Petitioner has failed to
demonstrate that he is entitled to relief. Accordingly, it is hereby ORDERED that

the petition for a writ of habeas corpus [Doc. 1] is DENIED WITH PREJUDICE,
with the exception of Petitioner's Claim 3, regarding Petitioner's challenge to
Georgia's lethal injection protocols, which is DENIED WITHOUT

PREJUDICE.
Pursuant to Rule 11 of the Rules Governing § 2254 Cases this Court must
"issue or deny a certificate of appealability when it enters a final order adverse to

the applicant." Under 28 U.S.C. § 2253(c)(2), a certificate of appealability may
issue "only if the applicant has made a substantial showing of the denial of a
constitutional right."

46
A072A
(Rev. 8/82)

Case 4:17-cv-00211-MHC Document 58 Filed 12/31/18 Page 47 of 47

After review, the Court concludes that a Certificate ofAppealability shall
issue as to Petitioner's Claim 1 (regarding Petitioner's contention that trial counsel
was ineffective for introducing evidence regarding Petitioner's antisocial
personality disorder). Claim 4 (regarding Petitioner' claim that Juror H.R. engaged
in misconduct), and Claim 12 (regarding Petitioner's claim that prosecutors
violated his rights under J.E.B. v. Alabama in the exercise ofperemptory strikes to
exclude women).

IT IS SO ORDERED this 31st day of December, 2018.

MARK H. COHEN

UNITED STATES DISTRICT JUDGE

47
A072A
(Rev.8/82)

APPENDIX 4

APPENDIX 5

APPENDIX 6

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

851, 546 S.E.2d 277, and
S.E.2d 58;

289 Ga. 70
Supreme Court of Georgia.

[8] prosecutor's comments during argument were not
improper;

LEDFORD
v.
The STATE.
No. S10P1859.
|
March 25, 2011.
|
Reconsideration Denied April 12, 2011.
Synopsis
Background: Defendant was convicted in the Superior
Court, Paulding County, James R. Osborne, J., of malice
murder and related offenses and was sentenced to death.
Defendant appealed.

[9] evidence supported jury's finding of aggravating
circumstances; and
[10] death sentence was not disproportionate to sentences
imposed in other cases.
Affirmed in part and vacated in part.

West Headnotes (56)
[1]

[1] separate convictions for aggravated battery did not merge
Nealey v. State, 285 Ga.App.

Merger of offenses

9 Cases that cite this headnote

[2] convictions for aggravated battery merged with conviction
for malice murder that arose from same course of conduct;

[2]

[4] trial court's rulings on prospective jurors' qualifications
were not abuse of discretion;

[7] defendant was not required to move for mistrial in order
to obtain appellate review of challenge to trial court's alleged
improper comment on evidence, disapproving
State, 276 Ga. 742, 584 S.E.2d 247;

Whitner v.

Walker v. State, 282

Pittman v. State, 273 Ga. 849,

Merger of offenses

and face, and larynx; overruling
Nealey v.
State, 285 Ga.App. 334, 646 S.E.2d 471. West's

[5] prior conviction for rape was sufficiently similar to instant
rape and aggravated battery;
[6] trial court's comment with respect to jury's visit to crime
scene was not improper comment on evidence;

Criminal Law

Three convictions for aggravated battery did not
merge with each other, where each battery count
was predicated on separate blows to body that
caused separate injuries to victim's lung, head

[3] change of venue was not warranted based on pretrial
publicity;

Ga. 774, 653 S.E.2d 439;

Criminal Law

The merger rule prohibiting more than one
conviction if one crime is included in the other
does not apply unless the same conduct of the
accused establishes the commission of multiple
crimes. West's Ga.Code Ann. § 16–1–7(a)(1).

Holdings: The Supreme Court, Carley, P.J., held that:

with each other, overruling
334, 646 S.E.2d 471;

Paul v. State, 272 Ga. 845, 537

Ga.Code Ann. §§ 16–1–7(a)(1),

16–5–24(a).

2 Cases that cite this headnote
[3]

Criminal Law

Merger of offenses

Three convictions for aggravated battery merged
with conviction for malice murder that arose
from same course of conduct; all three
aggravated battery convictions were predicated
on injuries that each contributed to victim's death
by asphyxiation, battery was included in crime of
murder, and only difference between crimes was

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

degree of injury. West's Ga.Code Ann. §§ 16–1–
7(a)(1),

16–5–1(a),

to information about case pretrial, most jurors
had heard nothing of particular import to court's
analysis of venue issue.

16–5–24(a).

9 Cases that cite this headnote
[4]

Criminal Law

Merger of offenses

If the same conduct established the commission
of both offenses, it is generally necessary to take
the next step in the merger analysis by applying
the “required evidence” test for determining
when one offense is included in another: a single
act may constitute an offense which violates
more than one statute, and if each statute requires
proof of an additional fact which the other does
not, an acquittal or conviction under either statute
does not exempt the defendant from prosecution
and punishment under the other. West's Ga.Code
Ann. §§ 16–1–6(1), 16–1–7(a)(1).

[8]

Sentencing and Punishment

Merger

The fact that the same intent supports an element
in each charged crime does not warrant merging
of the sentences, where other mutually exclusive
elements of the crimes remain, which must be
compared. West's Ga.Code Ann. § 16–1–7(a)(1).

[6]

Criminal Law

[9]

[10]

Criminal Law

[11]

Jury

Mode of examination

Jury

Punishment prescribed for offense

The proper standard for determining the
disqualification of a prospective juror based
upon his views on capital punishment is whether
the juror's views would prevent or substantially
impair the performance of his duties as a juror in
accordance with his instructions and his oath.

Particular offenses

Change of venue was not warranted in trial for
malice murder and related offenses based on
pretrial publicity; much of publicity occurred
long before trial and provided little detail about
case, and although 22 of 120 prospective jurors
questioned on subject were excused for cause
based at least in significant part on exposure

Mode of examination

Trial court's instruction to prospective jurors that
malice murder was defined as unlawful killing
without “justification, excuse or mitigation,” did
not mislead jurors into believing that guilty
verdict would exclude possibility of defendant
presenting any mitigation evidence at sentencing
for capital murder, in view of detailed voir dire,
great latitude granted to parties in conducting
their own voir dire, and trial court's instructions
to jury during penalty phase.

10 Cases that cite this headnote
[7]

Jury

A defendant's right to inquire into the ability
of prospective jurors to consider mitigating
evidence is not improperly limited by the
direction that prospective jurors should not
be asked to prejudge a given case based on
hypothetical evidence.

Merger of offenses

A crime is included in another, for merger
purposes, if it differs from the crime charged only
in the respect that a less serious injury or risk
of injury to the same person, property, or public
interest suffices to establish its commission.
West's Ga.Code Ann. § 16–1–7(a)(1).

Local Prejudice

In order to be entitled to a change of venue, a
defendant is required to show that the trial setting
is inherently prejudicial as a result of pretrial
publicity or show actual bias on the part of the
individual jurors.

10 Cases that cite this headnote
[5]

Criminal Law

2 Cases that cite this headnote
[12]

Criminal Law
selection of jury

Summoning, impaneling, or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

On appeal, the relevant inquiry as to the
qualification of a prospective juror based on his
or her views on capital punishment is whether
the qualification is supported by the record as a
whole.

[13]

Criminal Law

Jury selection

An appellate court must pay deference to the
finding of the trial court as to a prospective
juror's qualifications based on his or her views of
capital punishment; this deference includes the
trial court's resolution of any equivocations or
conflicts in the prospective juror's responses on
voir dire.
4 Cases that cite this headnote
[14]

Criminal Law
Jury

Jury

Jury

[19]

Jury

[20]

[21]

Impaneling jury in general

Jury

Punishment prescribed for offense

Jury

Punishment prescribed for offense

A potential juror's views on capital punishment
will disqualify the juror from service if the juror's
views would prevent or substantially impair the
performance of the juror's duties as a juror in
accordance with the instructions given the juror
and the oath taken by the juror.

Punishment prescribed for offense

Prospective juror who initially indicated that
she did not know if she could impose death as

Criminal Law

A juror who will automatically vote for the
death penalty in every case upon a conviction
for murder is not qualified to serve, because
such a juror, instead of giving consideration to
mitigating circumstances, begins the trial with an
unwavering bias in favor of one of the sentences
authorized under law, to the exclusion of the
others.

Punishment prescribed for offense

Punishment prescribed for offense

Punishment prescribed for offense

Because Georgia law entitles a defendant to
a panel of 42 qualified jurors, the erroneous
qualifying of a single juror for the panel from
which the jury was struck requires reversal.

Prospective jurors who repeatedly and clearly
stated that they were conscientiously opposed to
death penalty and could not consider it as option
were disqualified from serving on jury in capital
murder trial.

[17]

Jury

Prospective juror who stated that she would not
consider either death or life without possibility
of parole as sentence for capital murder was
disqualified from sitting on jury in capital murder
trial.

Discretion of court

Prospective juror was disqualified based on her
views of death penalty; although she initially
stated that she could consider death sentence
under certain circumstances, she gradually
moved from that position, to point that she stated
clearly that she could not impose death under any
circumstances whatsoever.

[16]

[18]

Selection and impaneling

Whether to strike a juror for cause is within the
discretion of the trial court, and the trial court's
rulings are proper absent some manifest abuse of
discretion.

[15]

sentence for capital murder and that she would
have to struggle with whether she could do so,
but who eventually settled clearly and firmly on
opinion that she could not consider imposing
death under any circumstances, was disqualified
from serving as jury in trial for capital murder.

2 Cases that cite this headnote
[22]

Criminal Law
selection of jury

Summoning, impaneling, or

Criminal Law

Jury selection

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

In conducting appellate review of the jury voir
dire to determine their qualification to serve
in a capital murder trial, the Supreme Court
views the voir dire of each juror as a whole and
gives deference to the findings of the trial court
concerning any juror's possible bias.

from considering all evidence and all sentencing
options.

[27]

Jury

Punishment prescribed for offense

Prospective juror's conflicting responses as to
whether he could consider sentence of life
without possibility of parole as sentence for
capital murder did not necessarily disqualify him
from serving on jury, in light of subsequent, clear
responses that he could consider such sentence
and that his responses had changed based on his
fuller understanding of trial process.

[24]

Jury

[28]

[29]

Jury

Punishment prescribed for offense

Prospective juror's responses at one point during
voir dire indicating that she would not consider
sentence less than death did not disqualify her
from sitting on jury in capital murder trial,
where she clarified her responses by stating that,
although she leaned in favor of death penalty, she
would consider all evidence and all sentencing
options.

[26]

Jury

[30]

Jury
Relationship to party or person
interested

Jury
Relationship to party or person
interested
Jury

Pretrial publicity

Prospective juror who stated that he had done
internet search and found article leading to
nothing prejudicial against defendant and whose
wife was no longer willing to use trail where
victim had been killed was not disqualified from
sitting as juror in capital murder trial.

Punishment prescribed for offense

Prospective juror who stated that she favored
death penalty for religious reasons was not
disqualified from serving on jury in capital
murder trial, where she stated repeatedly that
her religious beliefs would not prevent her

Impaneling jury in general

Prospective juror was not disqualified from
serving based on his statement that he and
his wife had ridden bicycles along same trail
where victim was beaten and killed, where juror
indicated that his contact with trail would not
affect deliberations.

1 Cases that cite this headnote
[25]

Criminal Law

Any possible error in failing to excuse two
prospective jurors based on their views of death
penalty was harmless, in capital murder trial,
where jurors were ultimately excused for other
reasons.

Punishment prescribed for offense

Prospective juror who indicated that he leaned
somewhat in favor of sentences other than life
without possibility of parole, but that he would
consider imposing such sentence in light of
evidence presented at trial, was qualified to sit on
jury in capital murder trial.

Punishment prescribed for offense

Prospective juror who stated that it was
highly improbable that he would find sufficient
mitigating circumstances to warrant sentence
of life without possibility of parole was not
disqualified from sitting on jury in capital
murder trial, where he acknowledged that he
might be impaired in his ability to select such
sentence, and indicated that he would consider
all mitigating evidence and all three sentencing
options.

1 Cases that cite this headnote
[23]

Jury

[31]

Jury

Pretrial publicity

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

Prospective juror who had seen some reports
indicating that murder had occurred and recalled
hoping at that time that perpetrator of such
“heinous crime” would be brought to justice was
not disqualified from serving in capital murder
trial, in view of voir dire responses indicating that
he had not formed opinion regarding defendant's
guilt or as to appropriate sentence for perpetrator.

[32]

Jury

resolve matter by asking its own questions
about juror's willingness to consider all three
sentencing options, it indicated that it would not
allow any more hypothetical questions as to what
juror would do in extreme case, and defendant
raised no further objections.
2 Cases that cite this headnote
[36]

Punishment prescribed for offense

Criminal Law
impaneling jury

Summoning and

Defendant waived challenge on direct appeal
to trial court's question to prospective juror
to clarify vague, hypothetical question during
prospective juror's voir dire as to whether
someone who had done something wrong was
entitled to mercy, where defendant did not object
to trial court's resolution of matter.

[34]

Criminal Law

1 Cases that cite this headnote
[35]

Criminal Law

[37]

Counsel for accused

Defendant waived challenge to trial court's
limitation of voir dire of prospective juror
regarding whether juror would consider life with
possibility of parole in case involving no excuse
and no justification, following state's objection
on basis that question called for prejudgment
of case, where, after trial court attempted to

Criminal Law
Events

Temporal Relation of

Gap of more than ten years between prior
conviction for rape and instant charges for
aggravated sodomy and aggravated assault with
intent to commit rape did not preclude finding
that prior rape was sufficiently similar to be
probative on issue of intent, bent of mind, and
course of conduct, in view of fact that defendant
had served ten-year sentence for prior rape.

Counsel for accused

Defendant waived claim on direct appeal that
trial court impermissibly interrupted defendant's
voir dire of prospective juror after defendant
asked question that could have been construed
as seeking prejudgment of case by jury, where
defendant interrupted trial court and immediately
continued his voir dire.

Mode of examination

Trial court's disallowance of question to
prospective juror who had stated that she
opposed death penalty because it foreclosed
possibility of change, as to whether her view on
death penalty might change if she was assured of
time gap between sentencing and execution, was
not abuse of discretion, in that question would
have been meaningful only if combined with
improper speculation about length of any appeal
process.

Prospective juror who was veterinarian and who
euthanized animals and believed process was
“humane,” without more, was not necessarily
disqualified from sitting on jury in capital murder
trial.

[33]

Jury

2 Cases that cite this headnote
[38]

Criminal Law
prostitution

Sex offenses, incest, and

Criminal Law
modus operandi

Similar means or method;

Evidence that several years prior to instant
rape and murder, defendant had attempted to
subdue woman riding bicycle along same bike
trail where victim was raped and murdered was
sufficiently similar to show defendant's modus
operandi and common scheme and plan.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

[39]

Criminal Law

Whitner v. State, 276 Ga. 742, 584 S.E.2d

View and Inspection

Allowing jury to view crime scene was not abuse
of discretion, in trial for capital murder; scene
view might have aided jury in understanding
evidence, despite changes, and because jurors
were able to see original condition of scene in
photographs placed in evidence.
1 Cases that cite this headnote
[40]

Criminal Law
in general

[43]

Course and conduct of trial

Comments on Evidence or

Trial court's comment to jury prior to visit
to crime scene that he would have sheriff go
because, “in the woods there are all kinds
of critters, snakes and dogs and cats and
whatever that might be out there” was not
improper comment on evidence suggesting that
victim's body had likely suffered damage from
animals and insects prior to or after death, in
capital murder trial; rather, statement was proper
exercise of trial court's duty to manage trial
proceedings and to ensure well-being of jury.
West's Ga.Code Ann. § 17–8–57.

Criminal Law

[44]

Criminal Law
in general

Course and conduct of trial

Criminal Law

Conduct of trial in general

Criminal Law
intent to kill

Homicide and assault with

Prosecutor's comment during argument, in raised
voice, that victim was “kicked,” “stomped,” and
“hit” were permissible comments on evidence
presented in trial for capital murder.

[45]

Criminal Law
Putting jurors in place of
victim; “golden rule” arguments
Prosecutor's argument urging jury to think about
unpleasant way in which victim had died was
not impermissible “golden rule” argument, in
trial for capital murder, but was made as part of
argument that defendant had acted with malice.
3 Cases that cite this headnote

Conduct of trial in general

Defendant was not required to move for mistrial
in order to obtain appellate review of claim that
trial court's comment that he would have sheriff
go with jury to crime scene visit because “there
are all kinds of critters, snakes and dogs and
cats and whatever that might be out there” was
improper comment on evidence suggesting that
victim's body had suffered injury from animals
or insects prior to or after death; rather, claim
was subject to plain error review; disapproving

Pittman v. State, 273 Ga. 849, 851, 546

5 Cases that cite this headnote

2 Cases that cite this headnote
[42]

439;

Even where a defendant has failed to object or
move for a mistrial based on an alleged improper
comment on the evidence by the trial court, on
appeal, the issue is simply whether there was
such a violation. West's Ga.Code Ann. § 17–8–
57.

1 Cases that cite this headnote
Criminal Law
Witnesses

Walker v. State, 282 Ga. 774, 653 S.E.2d

S.E.2d 277, and
Paul v. State, 272 Ga. 845,
537 S.E.2d 58. West's Ga.Code Ann. § 17–8–57.

Defendant waived claims raised on appeal
challenging order allowing jury to view crime
scene, in trial for capital murder, to extent that
defendant did not raise objections at trial.

[41]

247;

[46]

Criminal Law
Putting jurors in place of
victim; “golden rule” arguments
A “golden rule argument” is one that, regardless
of the nomenclature used, asks the jurors to place
themselves in a victim's position.
2 Cases that cite this headnote

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

[47]

Homicide
Degree or classification of
manslaughter

[52]

Evidence that victim had bitten defendant's
penis as he attempted to perform aggravated
sodomy on her did not warrant instruction
for voluntary manslaughter as lesser included
offense of malice murder. West's Ga.Code Ann.
§ 16–5–2(a).

Sentencing and Punishment
and conduct of counsel

Arguments

Prosecutor's comment during closing argument
at sentencing for capital murder that “[y]ou
haven't heard any evidence of his taking
responsibility,” was not improper comment on
defendant's decision not to testify, but was
specific reference to matters actually in evidence.
2 Cases that cite this headnote

[48]

Criminal Law

Form of verdict

Any defect in original jury form in which jury
had dated its guilt/innocence verdict in multiple
places was cured by new verdict form to remove
any scrivener's error involved.

[49]

Criminal Law
evidence

[53]

Convictions for aggravated battery supported
jury finding of aggravating circumstance that
murder was committed while defendant was
engaged in commission of aggravated battery,
as grounds for imposing death sentence, even
though convictions did not merge into conviction
for malice murder, in view of evidence that death

Wrongfully obtained

Defendant waived claim on appeal challenging
admission of telephone calls he made from jail
based on lack of implied consent to recording of
calls, where he did not object to telephone calls
on that basis.

[50]

Sentencing and Punishment
and conduct of counsel

Arguments

was not instantaneous. West's
§ 17–10–30(b)(2).

Sentencing and Punishment
and conduct of counsel

Arguments

Prosecutor's comment during argument in
sentencing for capital murder that defendant
had shown of lack of empathy was permissible
inference from evidence of telephone call in
which he stated desire to make money from his
crimes.

Ga.Code Ann.

5 Cases that cite this headnote
[54]

Prosecutor's comment during argument in
sentencing phase of capital murder trial that
defendant might present future danger to others
was permissible comment on evidence that
defendant had sexually harassed pregnant prison
guard and that he made sexual remarks to 14year-old girl over telephone from jail.

[51]

Sentencing and Punishment
Killing
while committing other offense or in course of
criminal conduct

Sentencing and Punishment
heinousness, or atrocity

Vileness,

Evidence supported jury finding of aggravating
circumstance that victim was tortured, as
grounds for imposing death sentence for capital
murder, where death was not instantaneous, but
was preceded by serious sexual abuse as well as
serious physical abuse. West's
§ 17–10–30(b)(7).

[55]

Sentencing and Punishment
heinousness, or atrocity

Ga.Code Ann.

Vileness,

Malice murder was committed in manner that
was outrageous or wantonly vile, horrible
or inhuman, as aggravating circumstance
supporting imposition of death sentence for
capital murder, in view of evidence that
defendant stomped on and kicked victim's face

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

and head. West's
30(b)(7).

[56]

Ga.Code Ann. § 17–10–

Sentencing and
Punishment
Proportionality in general
Sentencing and Punishment
heinousness, or atrocity

Vileness,

Sentencing and Punishment
Nature,
degree, or seriousness of other offense
Imposition of death sentence was not
disproportionate to sentences imposed in other
cases, in view of evidence that victim was
brutally kicked and stomped in course of violent
rape and sodomy, and that defendant had long
history of criminal acts against women and
sexually deviant behavior, and in light of review
of other cases where death sentence was imposed
in cases involving murder committed during
sexual assault and kidnapping, or where murder
involved aggravated battery, torture, or depravity
of mind. West's
(3),

Ga.Code Ann. § 17–10–35(c)

(e).

of conviction on the guilty verdicts and sentenced Ledford
to death for murder and to various consecutive terms of
imprisonment for the remaining crimes. Ledford appeals after
the denial of a motion for new trial. * For the reasons set forth
below, we vacate *71 Ledford's convictions and sentences
for aggravated battery, but affirm all remaining convictions
and sentences, including his death sentence for the murder.
1. The evidence presented at trial showed that, on July 25,
2006, Michael Ledford pretended to go to work but, instead,
bought beer and drank it near the Silver Comet Trail, a
recreational trail used for biking, running, and other activities.
Ledford knocked Jennifer Ewing from her bicycle as she rode
by his location. He dragged her a distance off the trail to a
location shielded from view by vegetation. He stripped off
all of her clothing from the waist down, and he pulled her
shirt up part way, exposing her breasts. She suffered bruises
throughout her body in the struggle. When Ledford forced his
penis into her mouth, she bit his penis and severely wounded
it. Enraged by her resistance, Ledford unleashed a shocking
attack during which he stomped on her face and nose, her
larynx, and her ribs. Ms. Ewing gradually succumbed to
asphyxiation caused by her wounds and the resulting bleeding
into her lungs.
Upon our review of the record, we conclude that the evidence
presented at trial was sufficient to authorize a rational trier
of fact to find Ledford guilty beyond a reasonable doubt on

Attorneys and Law Firms
**244 Jimmy Dodd Berry, Marietta, Carl P. Greenberg,
Office of Georgia Capital Defender, Thomas McKee West,
Atlanta, for appellant.
Fred Andrew Lane, Jr., District Attorney, Patricia B. Attaway
Burton, Senior Assistant Attorney General, Thurbert E.
Baker, Attorney General, Lyndsey Jean Hurst, Assistant
Attorney General, Mary Beth Westmoreland, Deputy
Attorney General, Department of Law, for appellee.
Opinion
**245 CARLEY, Presiding Justice.
*70 A jury found Michael William Ledford guilty of
the murder of Jennifer Ewing and related offenses. After
finding multiple statutory aggravating circumstances, the
jury recommended a death sentence for the murder. See
OCGA § 17–10–30(b). The trial court entered judgments

all charges.
Jackson v. Virginia, 443 U.S. 307, 99 S.Ct.
2781, 61 L.Ed.2d 560 (1979). However, we recognize that
the victim's death was caused by the same actions which
established the commission of the three aggravated batteries.
Thus, we will determine whether the aggravated batteries
should merge either into each other or into the malice murder.
[1] [2] We will first address the question of whether the
aggravated batteries must be merged into each other. “Georgia
law prohibits multiple convictions if ‘(o)ne crime is included
in the other.’ OCGA § 16–1–7(a)(1).” Goss v. State, 289
Ga.App. 734, 738(3), 658 S.E.2d 168 (2008). Under the
express terms of that statute, however, “[t]he rule prohibiting
more than one conviction if one crime is included in the
other does not apply unless ‘the same conduct’ of the accused
establishes the commission of multiple crimes.”
Waits v.
State, 282 Ga. 1, 4(2), 644 S.E.2d 127 (2007). In this case,
the first count of aggravated battery required the State to
prove that Ledford seriously disfigured the victim's head and
face, the second count required **246 proof that he rendered

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

her larynx useless, and the third count required proof that he
deprived her of her lung. See
OCGA § 16–5–24(a). “Each
count thus was predicated on different conduct by [Ledford].”
Goss v. State, supra at 739(3)(b), 658 S.E.2d 168. Moreover,
the testimony of a pathologist shows that each of these injuries
was *72 caused by separate blows to the victim's body.
Therefore, each aggravated battery verdict is attributable to
different conduct than the other aggravated battery verdicts.
See
Waits v. State, supra. Accordingly, the doctrine of
merger does not apply, and separate convictions for each
count of aggravated battery clearly are appropriate unless
they merge into the murder conviction.

Waits v. State,

supra; Goss v. State, supra. Compare
Gonzales v. State,
298 Ga.App. 821, 824(1), 681 S.E.2d 248 (2009) (error in
sentencing defendant on two aggravated battery counts based
on the single unlawful act against the same victim of pushing
her out of a moving car). We note that the same holding

Linson v. State, 287 Ga. 881, 885(4), 700 S.E.2d 394
(2010). Both malice murder and aggravated battery require
a malicious intent. See
24(a).

OCGA §§ 16–5–1(a),

16–5–

However, “ ‘(t)he fact that (such intent) supports an element
in each crime does not warrant merging of the sentences
where other mutually exclusive elements of the crimes
remain.’ (Cit.)” [Cit.] The other elements of the two
*73 offenses must be compared. “Malice murder, but
not [aggravated battery], requires proof that the defendant
caused the death of another human being....
16–5–1(a).” [Cit.]

OCGA §

Linson v. State, supra. “Aggravated battery ... requires
proof that the victim was deprived of a member of his body ...,
or that such member was rendered useless or seriously

on similar facts is found in
Nealey v. State, 285 Ga.App.
334, 335–336(1), 646 S.E.2d 471 (2007), but that decision
must be overruled because it erroneously skipped the “same
conduct” analysis and unnecessarily examined whether one
aggravated battery was included in another by utilizing the

disfigured.
OCGA § 16–5–24(a); [cit.]”
Waits v. State,
supra. This required injury is the only element of aggravated
battery which is arguably not also part of the required
proof for malice murder. Determination of that question
would depend upon whether the proof of death required for
murder is viewed as necessarily including proof that a bodily
“actual evidence” test, which was rejected in
Drinkard v.
member was rendered useless and the victim deprived thereof.
Walker, 281 Ga. 211, 636 S.E.2d 530 (2006).
However, even if aggravated battery does require proof of
[3]
[4]
[5]
[6] We next address whether any ofan injury which malice murder does not, merger of the two
crimes may still be required by Georgia's statutory definition
the aggravated battery counts must be merged into the
murder count. The evidence showed that each of the three
of included offenses.
Drinkard explained as follows:
aggravated batteries contributed to the death of the victim by
The “required evidence” test applies strictly within the
asphyxiation and, thus, the “same conduct” established the
context of determining whether multiple convictions are
commission of both malice murder and the aggravated battery
precluded because one of the crimes was “established by
counts. However, merger of any aggravated battery count into
proof of the same or less than all the facts” that were
the murder count
required to establish the other crime under OCGA § 16–1–
is not required on this basis. If the same conduct established
6(1). There are additional statutory provisions concerning
the commission of both offenses, it is [generally] necessary
prohibitions against multiple **247 convictions for
to take the next step in the analysis by applying the
closely related offenses.... These provisions include:
OCGA § 16–1–6(1) (one crime is included in the other
“required evidence” test[, as adopted in
Drinkard
where it is established by “proof of ... a less culpable mental
pursuant to OCGA §§ 16–1–6(1), 16–1–7(a)(1),] for
state”); OCGA § 16–1–6(2) (one crime is included in the
determining when one offense is included in another: “(A)
other where it differs only in that it involves a “less serious
single act may constitute an offense which violates more
injury or risk of injury to the same person, property, or
than one statute, ‘ “and if each statute requires proof of
public interest or a lesser kind of culpability”); and OCGA
an additional fact which the other does not, an acquittal
§ 16–1–7(a)(2) (precluding multiple convictions where one
or conviction under either statute does not exempt the
crime differs from another “only in that one is defined to
defendant from prosecution and punishment under the
prohibit a designated kind of conduct generally and the
other.” (Cit.)’ [Cit.]” [Cit.]
other to prohibit a specific instance of such conduct”).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

These other statutory provisions resolve potential gaps in
the Blockburger [v. United States, 284 U.S. 299, 52 S.Ct.
180, 76 L.Ed. 306 (1932) ] “required evidence” analysis
which otherwise might support multiple convictions for
closely related offenses where multiple convictions are
unwarranted. [Cits.]
Drinkard v. Walker, supra at 216, fn. 32, 636 S.E.2d 530.
For this explanation and other portions of
Drinkard, this
Court relied heavily on Justice *74 Marshall's dissenting
opinion in
Haynes v. State, 249 Ga. 119, 121–130, 288
S.E.2d 185 (1982). As further explained in that opinion, by
providing that a crime is included if “[i]t differs from the
crime charged only in the respect that a less serious injury
or risk of injury to the same person, property, or public
interest ... suffices to establish its commission,” OCGA §
16–1–6(2) “recognizes that a crime such as battery, which
prohibits the intentional infliction of bodily injury, is included
in a crime such as murder, which prohibits the intentional
infliction of more serious bodily injury, i.e., death,” despite
the distinction between these two injury elements. Haynes
v. State, supra at 129(3)(b)(2), 288 S.E.2d 185 (Marshall,
J., dissenting). Similarly, it is clear that the only difference
between aggravated battery and murder is that the former
requires a less serious injury to the person of the victim, as
the injury to a bodily member specified in the aggravated
battery statute is obviously less serious than death. Therefore,
pretermitting whether these two offenses meet the “required
evidence” test, convictions for both offenses established by
the same conduct are prohibited by OCGA § 16–1–6(2).
Accordingly, the convictions and sentences entered on the
aggravated battery counts must be vacated.

Pre-trial Issues
[7]
[8] 2. Ledford contends that the trial court erred
by refusing to order a change of venue based on pre-trial
publicity. In order to be entitled to a change of venue, Ledford
was required to “show that the trial setting was inherently
prejudicial as a result of pretrial publicity or show actual
bias on the part of the individual jurors.”
Gissendaner
v. State, 272 Ga. 704, 706–707(2), 532 S.E.2d 677 (2000).
Our review of the record reveals that much of the pre-trial
publicity in Ledford's case was long before the trial and that
much of the publicity provided little detail about the case

and was accurate.
Gissendaner v. State, supra at 706(2),
532 S.E.2d 677. Although our own review of the record
reveals that 22 of the 120 jurors questioned on the subject
were excused for cause based at least in significant part on
exposure to information about the case pre-trial, we note that
most jurors had heard nothing of particular import to our
analysis regarding venue and that the trial court exercised
an “exacting standard” in evaluating jurors' qualifications for
service.
Gissendaner v. State, supra at 707(2), 532 S.E.2d
677. In light of these considerations, we find that the trial
court did not abuse its discretion in denying the motion for
a change of venue.
532 S.E.2d 677.

Gissendaner v. State, supra at 706(2),

3. Ledford argues that the trial court erred by denying his
motion challenging the constitutionality of Georgia's death
penalty *75 laws on various grounds. For the reasons set
forth below, we find no error.
(a) Ledford argues that Georgia's death penalty laws are
applied in a discriminatory manner. However, he has utterly
failed to show that any such discrimination has occurred in his
case.

McCleskey v. Kemp, 481 U.S. 279, 107 S.Ct. 1756, 95

L.Ed.2d 262 (1987); Jenkins v. State, 269 Ga. 282, 285(2),
498 S.E.2d 502 (1998).
**248 [9] (b) A defendant's right to inquire into the ability
of prospective jurors to consider mitigating evidence is not
improperly limited by this Court's direction that prospective
jurors should not be asked to prejudge a given case based on
hypothetical evidence. See

Lucas v. State, 274 Ga. 640,

646(9), 555 S.E.2d 440 (2001); King v. State, 273 Ga. 258,
267(18)(e), 539 S.E.2d 783 (2000). The right to have jurors
consider mitigating evidence is also not improperly limited by
the expansive definition of mitigating evidence given to juries
in Georgia. See
Rhode v. State, 274 Ga. 377, 384(15), 552
S.E.2d 855 (2001); Suggested Pattern Jury Instructions, Vol.
II: Criminal Cases (4th ed.), § 2.15.30.
(c) Georgia's statutory aggravating circumstances do not fail
to adequately narrow the class of cases eligible for the death
penalty, and they do not otherwise promote the arbitrary and
capricious infliction of the death penalty. See
Gregg v.
Georgia, 428 U.S. 153, 96 S.Ct. 2909, 49 L.Ed.2d 859 (1976);

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

Arrington v. State, 286 Ga. 335, 336–337(4), 687 S.E.2d 438
(2009).
(d) This Court does not conduct its statutorily-mandated
proportionality review in an unconstitutional manner. See
Arrington v. State, supra at 337(4), 687 S.E.2d 438;
Gissendaner v. State, supra at 716(16), 532 S.E.2d 677.
4. Ledford argues that Georgia's method of execution by lethal
injection is unconstitutional. In support of this claim, Ledford
relies on evidence from another death penalty case in which
this Court rejected a similar claim. See
Nance v. State,
280 Ga. 125, 127(4), 623 S.E.2d 470 (2005). As we have
done repeatedly, we hold that this evidence fails to show that
Georgia's method of lethal injection is unconstitutional. See
Stinski v. State, 286 Ga. 839, 844(17), 691 S.E.2d 854 (2010);
O'Kelley v. State, 284 Ga. 758, 769–770(4), 670 S.E.2d 388
(2008) (citing
Baze v. Rees, 553 U.S. 35, 128 S.Ct. 1520,
170 L.Ed.2d 420 (2008)).

Jury Selection Issues
[10] 5. In conducting its initial voir dire of the first three
prospective jurors, the trial court, relying on the pattern jury
instructions, described the malice involved in the crime of
malice murder as being “the unlawful intention to kill without
justification, excuse, or mitigation.” Suggested Pattern Jury
Instructions, Vol. II: Criminal *76 Cases (4th ed.), § 2.10.10.
Ledford objected to the trial court's reference to an absence of
“ mitigation” in this context, arguing that it had the potential
to mislead jurors into believing in the sentencing phase
that, by finding Ledford guilty of malice murder, they had
already excluded the possibility of there being any mitigation
relevant to sentencing. The trial court proposed modifying
its statement about malice murder and “mitigation,” and it
proceeded, without any specific objection to its doing so as
proposed, with the voir dire of two additional jurors. After
the voir dire of these two jurors, Ledford objected again, and
the trial court agreed simply to omit any future reference to
“ mitigation” in its definition of malice murder. Ledford then
moved the trial court to excuse all of the jurors already found
qualified. In light of the detailed voir dire conducted by the
trial court itself, the great latitude granted to the parties to
conduct their own voir dire of the jurors in question, and
the trial court's charges to the jury in the sentencing phase,
we find that those jurors would not have been confused
about the role of mitigating circumstances in the sentencing

phase. Accordingly, we hold that the trial court did not err by
refusing to excuse the jurors in question. The trial court, in
its discretion, might have considered allowing additional voir
dire if Ledford had requested it, but Ledford made no such
request. See Arrington v. State, supra at 338(7), 687 S.E.2d
438 (“The scope of voir dire is generally a matter for the trial
court's discretion.”). We find no error.
[11] [12] [13] [14] 6. Ledford argues that the trial court
improperly excluded a number of prospective jurors based on
their views on the death penalty.
The proper standard for determining the disqualification
of a prospective juror based upon his views on capital
punishment “is whether the juror's views would ‘prevent or
substantially impair the performance of his duties as a juror
in accordance with his instructions and his oath.’ ” **249
[Cits.] On appeal, the relevant inquiry is whether the trial
court's qualification of the prospective juror is supported
by the record as a whole. [Cit.] An appellate court must pay
deference to the finding of the trial court; this deference
includes the trial court's resolution of any equivocations or
conflicts in the prospective juror's responses on voir dire.
[Cit.] “Whether to strike a juror for cause is within the
discretion of the trial court and the trial court's rulings are
proper absent some manifest abuse of discretion.” [Cit.]
Nance v. State, 272 Ga. 217, 222(6), 526 S.E.2d 560
(2000). Applying this standard below, we find no error.
[15]
*77 (a) Although Juror Debellevue initially stated
that she could consider a death sentence under certain
circumstances, she gradually moved from that position,
explaining that she had been “nervous” when she gave her
earlier responses. As questioning by the parties continued,
the juror settled on the position that she did not believe
that she could impose a death sentence even under the most
extreme hypothetical circumstances that she had previously
volunteered as examples. Finally, the juror stated clearly
that she could not impose a death sentence under any
circumstances whatsoever. The trial court did not abuse its
discretion in finding that the juror's responses, taken as a
whole, indicated that she was unqualified.
[16] (b) Jurors Davis and Barnes stated repeatedly and
clearly that they were conscientiously opposed to the death
penalty and could not consider it as a sentencing option.
The trial court did not abuse its discretion in finding them
unqualified.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

[17] (c) Although Juror Grayson initially indicated merely
that she did not know if she could impose a death sentence
and that she would have to struggle with whether she could
do so, she eventually settled clearly and firmly on the position
that she would not consider imposing a death sentence under
any circumstances. The trial court did not abuse its discretion
in finding her unqualified.
[18] (d) Juror Berg stated clearly that she would not consider
either a death sentence or a sentence of life with the possibility
of parole. The trial court did not err in finding her unqualified.
(e) Juror Wade stated repeatedly and clearly that she would
not consider a death sentence under any circumstances. The
trial court did not err in finding her unqualified.
(f) As to Jurors Lecca, Ricker, and Jackson, Ledford's only
contention is that it is always improper to disqualify jurors
simply because they would never be able to actually vote to
impose a death sentence. This Court has rejected this view
repeatedly. See Arrington v. State, supra at 336(2), 687 S.E.2d
438; Riley v. State, 278 Ga. 677, 685(6)(B), 604 S.E.2d 488
(2004).

Lance v. State, 275 Ga. 11, 15–16(8), 560 S.E.2d 663
(2002). We have also held that a **250 juror's willingness
to consider a sentence of life with the possibility of parole
is governed by these same standards. See
Sealey v. State,
277 Ga. 617, 619(5), 593 S.E.2d 335 (2004). Applying these
standards below, we find no error.
(a) Juror Greeson's voir dire responses, viewed as a
whole, clearly indicated a willingness to consider mitigating
evidence and to consider all three sentencing options. The trial
court did not abuse its discretion in finding this juror qualified.
(b) After Ledford objected to a question to Juror Marino about
whether he could “look [Ledford] in the eye” and sentence
him to death, the trial court sustained the objection on the
ground that the juror would never be required to look the
defendant in the eye while the jury rendered its sentence. The
trial court then asked a proper question regarding whether the
juror, under appropriate circumstances, could ever sentence
“any person” to death. We find nothing disqualifying about
this juror's death penalty views. Furthermore, Ledford's claim
regarding the juror's death penalty views, to the extent that he
has attempted to raise one, was waived by his failure to raise

[19] [20] [21] [22] 7. Ledford argues that the trial courtany relevant objection at trial. See Braley v. State, 276 Ga.
47, 51(11), 572 S.E.2d 583 (2011).
erred by finding a number of jurors qualified to serve over his
objection based on their death penalty views or their views
[23] (c) Ledford argues that Juror Sherrill should have been
regarding the sentence of life with the possibility of parole.
excused because he would refuse to consider a sentence of
We have set forth the relevant standards for claims regarding
life with the possibility of parole. Juror Sherrill, at first, gave
death penalty views as follows:
conflicting responses regarding his willingness to consider
Because Georgia law entitles a defendant to a panel of
life with the possibility of parole. However, in light of his
42 qualified jurors, the erroneous qualifying of a single
later, clear responses indicating that he would consider that
juror for the panel from which the jury was struck requires
sentence and in light of his explanation that his responses
reversal. [Cit.] “A juror who will automatically vote for the
had changed based on his fuller understanding of the trial
death penalty in every case” upon a conviction for murder
process, the trial court did not abuse its discretion in finding
is not qualified to serve. [Cit.] This is true because such
him qualified.
a *78 juror, instead of giving consideration to mitigating
circumstances, begins the trial with an unwavering bias in
[24] (d) Juror Ridarick's responses indicated that he leaned
favor of one of the sentences authorized under law, to the
somewhat in favor of sentences other than life with the
exclusion of the others. [Cit.] A potential juror's views on
possibility of *79 parole but that he would consider
capital punishment will disqualify the juror from service if
imposing life with the possibility of parole in light of the
the juror's views would prevent or substantially impair the
evidence presented at trial. The trial court did not abuse its
performance of the juror's duties as a juror in accordance
discretion in finding him qualified.
with the instructions given the juror and the oath taken by
the juror. [Cits.] In conducting our review, this Court views
(e) Despite Juror Childers' response to an improper
the voir dire of each juror as a whole and gives deference
hypothetical question regarding what sentence she would
to the findings of the trial court concerning any juror's
impose “if the crime was really bad,” her remaining responses
possible bias. [Cit.]
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

clearly indicated that she was willing to consider all of the
evidence at trial and all three sentencing options. The trial
court did not abuse its discretion in finding her qualified.

life with the possibility of parole under certain circumstances.
The trial court did not abuse its discretion in finding the juror
qualified.

[25] (f) Juror Cash initially stated repeatedly that she could
consider all three sentencing options. Although she later
seemed to indicate at one point that she would not consider a
sentence less than death, she then clarified by indicating that,
although she had a leaning in favor of the death penalty, she
would consider all of the evidence and all three sentencing
options. The trial court did not abuse its discretion in finding
that the juror's responses, taken as a whole, indicated that she
was qualified. See Pace v. State, 271 Ga. 829, 834(7), 524
S.E.2d 490 (1999) (noting that “[a] prospective juror is not
subject to excusal for cause for merely leaning for or against
a death sentence”).

[28] (k) Ledford argues that Jurors McClung and Halualani
should have been excused based on their death penalty views.
Although not noted by either of the parties, our own review
of the record reveals that these two jurors were eventually
excused for other reasons. Accordingly, we find no possibility

[26] (g) Although Juror Slate indicated that she generally
was in favor of the death penalty for religious reasons, she
also indicated repeatedly that her religious views would not
prevent her from considering all of the evidence and all three
sentencing options. The trial court did not abuse its discretion
in finding her qualified.
(h) Juror Fennelly initially indicated that she would not
consider a sentence of life with the possibility of parole.
However, after receiving an explanation about the trial
process and the law and after further contemplating her
position, she explained that she would consider all of the
evidence and all three possible sentences. The trial court did
not abuse its discretion in finding her qualified.
[27] (i) Juror Dunbar stated that it was “highly improbable”
that he would find sufficient mitigating circumstances to
warrant a sentence of life with the possibility of parole. He
also acknowledged, in responding to a question invoking
technical legal terminology that might have been unfamiliar
to him, that he might be substantially impaired in his ability
to select such a sentence. Nevertheless, the juror's responses
indicating that he **251 would consider mitigating evidence
and all three sentences, especially when combined with the
trial court's detailed observations about the juror's demeanor
in giving various responses, lead us to conclude that the trial
court did not abuse its discretion in finding the juror qualified.
(j) Although Juror Fitzpatrick initially gave responses
indicating that he would not consider life with the possibility
of parole as a sentencing option, he later clarified that he
would consider all of the *80 evidence and would consider

of reversible error. See
Butts v. State, 273 Ga. 760,
763(4), 546 S.E.2d 472 (2001) (“Because it appears that [the
appellant's] suggestion that the juror was ultimately found
qualified to serve is false, we find no error.”).
8. Ledford complains that a number of jurors should have
been disqualified from service on grounds unrelated to their
willingness to consider all three sentencing options. We find
no error.
[29] (a) The trial court did not abuse its discretion by
refusing to excuse Juror Belanger based solely on the fact that
he and his wife had twice ridden bicycles on the Silver Comet
Trail, particularly because the juror indicated that his past
contact with the trail would not affect his deliberations. See
Gissendaner v. State, supra at 707(3)(a), 532 S.E.2d 677
(“A prospective juror need not be ‘totally ignorant of the facts
and issues involved’ in a criminal proceeding in order to be
qualified to serve.” (quoting

Irvin v. Dowd, 366 U.S. 717,

722, 81 S.Ct. 1639, 6 L.Ed.2d 751 (1961));
DeYoung v.
State, 268 Ga. 780, 784(4), 493 S.E.2d 157 (1997)) (noting the
trial court's discretion in determining whether a juror should
be disqualified based on pre-trial exposure to information
about the case).
[30] (b) Ledford argues that the trial court erred in refusing
to excuse Juror Marino based on the fact that the juror
had done one internet search that had led him to an article
revealing nothing prejudicial to Ledford and based on the fact
that the juror's wife had learned about a murder on the Silver
Comet Trail and was no longer willing to use the trail. The
trial court did not abuse its discretion by finding this juror
qualified.

Gissendaner v. State, supra.

[31] (c) Ledford argues that the trial court erred by refusing
to excuse Juror Toler based on the fact that the juror had
seen some reports indicating that a murder had occurred
and on the fact that the juror recalled hoping at that time

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

13

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

that the person guilty of such a “heinous crime” would be
brought to justice. In light of Juror Toler's remaining voir
dire responses indicating that he had not formed an opinion
regarding Ledford's guilt or the appropriate sentence for
the perpetrator of the murder, we find that the trial court
did not abuse its discretion by finding this juror qualified.
Gissendaner v. State, supra.

[33] (b) After the State objected to a vague, hypothetical
question to Juror Hurtado about whether “someone [who] has
done something wrong” is entitled to mercy, the trial court
asked a related, proper question about whether the juror would
consider all of the mitigating evidence. We find no abuse of
discretion by the trial court. Furthermore, this claim is waived,
because Ledford did not object to the trial court's resolution of
the matter.

[32] (d) We reject Ledford's argument that Juror Williams
was unqualified to serve as a juror simply because she, as a
veterinarian, *81 had euthanized animals and believed that
the process was “humane.” Jurors in Georgia death penalty
trials are never instructed to consider the method of execution
in their deliberations. See
Smith v. State, 270 Ga. 240,
250–251(16), 510 S.E.2d 1 (1998) (noting that the nature of
Georgia's method of execution is irrelevant in the sentencing
phase), overruled on other grounds, O'Kelley v. State, supra at
768(3), 670 S.E.2d 388. Furthermore, to the extent that there
was any possibility that Juror Williams, or any other jurors for
that matter, might express the view during deliberations that
Georgia's method of execution is humane, we see no potential
for prejudice to Ledford in light of our own prior holdings
expressing that same view. Accordingly, we conclude that the
trial court did not abuse its discretion by finding this juror
qualified.

**252 Gissendaner v. State, supra at 707(3)

(a), 532 S.E.2d 677;
S.E.2d 157.

DeYoung v. State, supra at 784(4), 493

9. Ledford argues that the trial court erred by limiting the voir
dire of a number of jurors. For the reasons set forth below,
we find no abuse of the trial court's discretion in limiting the
scope of voir dire. See Arrington v. State, supra at 338(7), 687
S.E.2d 438 (“The scope of voir dire is generally a matter for
the trial court's discretion.”).
(a) The trial court did not err by refusing to allow Ledford to
question Juror Bailey regarding what weight she might give in
her sentencing deliberations to several specific hypothetical
factors. See

Lucas v. State, supra at 646(9), 555 S.E.2d

440;
King v. State, supra at 267(18)(e), 539 S.E.2d 783.
The trial court also did not err by refusing to allow Ledford
to ask Juror Bailey the largely irrelevant question of whether
she would want a juror like herself to serve as a juror but,
instead, itself asking the juror the more relevant question of
whether she believed she could be fair and could consider all
three sentencing options.

Braley v. State, supra at 52(18), 572 S.E.2d 583.

(c) Ledford complains that the trial court improperly
sustained an objection to his question to Juror Toler regarding
what opinion about sentencing the juror might have had
when he first learned some limited information about the
crimes. Our review of the record reveals that, regardless of the
merit to Ledford's initial objection, the trial court ultimately
resolved the matter appropriately by determining through its
own questions that the juror had not formed any such opinion.
Furthermore, Ledford has waived this claim by failing to
object to the trial court's resolution of the matter.
v. State, supra.

Braley

[34] *82 (d) Ledford made no objection to the trial court's
briefly interrupting his voir dire of Juror Ingram after Ledford
asked a question that could have been construed as seeking a
prejudgment of the case by the juror. Ledford then interrupted
the trial court and immediately continued his voir dire of
the juror without any restrictions. We find that Ledford has
waived his claim regarding any alleged limitation of this
portion of his voir dire of the juror.

Braley v. State, supra.

[35] In another portion of Ledford's voir dire of Juror
Ingram, the State objected to a question by Ledford about
whether the juror would consider life with the possibility of
parole in a case involving “no excuse [and] no justification.”
In response to the State's objection on the basis that the
question called for a prejudgment of the case, the trial court
attempted to resolve the matter by asking its own question
about the juror's willingness to consider all three sentences.
Ledford pursued the matter by stating that he still wished
to have the juror answer his initial question. However, after
the trial court indicated properly that it would not allow any
questions regarding what the juror would do in a hypothetical
“extreme case” and asked several more of its own questions
to the juror, Ledford raised no further objection and continued
by reminding the juror of the definition of murder and
questioning the juror extensively about whether she would
consider a sentence of life with the possibility of parole upon
a conviction for murder. Under these circumstances, we find

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

14

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

that Ledford has waived his right to claim that the trial court
improperly limited his voir dire.

Braley v. State, supra.

[36] (e) Juror Berg stated that she opposed the death penalty
because it foreclosed the possibility that a defendant could
change in the future. The trial court disallowed a question by
Ledford to Juror Berg regarding whether her views on the
death penalty might change if she could be assured that there
would be a sufficient gap in time between sentencing and the
execution of any death sentence. We find that the trial court
**253 did not abuse its discretion in limiting the scope of
voir dire by disallowing this question, which would have been
meaningful only if combined with improper speculation about
the length of any appeal process.
10. Ledford argues that the trial court erred by denying his
claim that the State had used its peremptory strikes in a
racially discriminatory manner by using one of its strikes
against the only African–American juror on the list of jurors
from which the panel of 12 jurors was selected. See Batson
v. Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90 L.Ed.2d 69
(1986). After the trial court found that Ledford had made a
prima facie showing of discrimination, the State presented
racially neutral reasons for its strike. We find the State's
racially neutral reasons to be satisfactory. Ledford attempted
to show in the trial *83 court that the State's racially
neutral reasons were pretextual, but we find that the State
provided a satisfactory response indicating otherwise. In light
of Ledford's failure to explain on appeal specifically why a
different conclusion is warranted, the trial court's finding that
Ledford failed to carry his burden of proof was not clearly
erroneous. See
Brannan v. State, 275 Ga. 70, 75(5), 561
S.E.2d 414 (2002).
11. Ledford also argues that the State engaged in gender-based
discrimination in its use of peremptory strikes. See
J.E.B.
v. Alabama, 511 U.S. 127, 114 S.Ct. 1419, 128 L.Ed.2d
89 (1994). The record shows that, during the selection of
the panel of 12 jurors, the State used 75 percent of the
peremptory strikes it exercised to strike women. The trial
court found that Ledford failed to make a prima facie showing
of discrimination and, therefore, did not require the State
to offer gender-neutral reasons for its strikes. In light of
Ledford's failure to present any “additional facts which may
give rise to an inference of discriminatory purpose,” we hold
that the trial court did not err in concluding that Ledford had
failed to carry his burden of establishing a prima facie case
of discrimination. Whitaker v. State, 269 Ga. 462, 464(3), 499

S.E.2d 888 (1998) (addressing the State's use of 66 percent of
its peremptory strikes to strike women).

Guilt/Innocence Phase Issues
12. Ledford argues that the trial court erred by admitting
evidence of two similar transactions. See Williams v. State,
261 Ga. 640, 641–642(2), 409 S.E.2d 649 (1991). For the
reasons set forth below, we find no error.
[37] (a) The first similar transaction involved the rape of
a woman in Paulding County in 1991, for which Ledford
was convicted and served ten years in prison. The trial
court charged the jury that the evidence was being admitted
as possible evidence of “intent, lustful disposition, bent of
mind, and course of conduct....” The trial court did not err
by finding that the rape was sufficiently similar to form
probative evidence on these matters regarding Ledford's
pending charges of aggravated sodomy and aggravated
assault committed with the intent to rape. See
Hinton v.
State, 280 Ga. 811, 817–818(6), 631 S.E.2d 365 (2006). The
lapse in time between this rape and the murder does not erode
the relevance of the rape in the guilt/innocence phase of this
case, especially because that lapse is explained by Ledford's
ten-year incarceration for the rape.
Hinton v. State, supra.
See also Pareja v. State, 286 Ga. 117, 120–121, 686 S.E.2d
232 (2009). Finally, the trial court did not abuse its discretion
by not excluding the evidence on the ground that its probative
value was outweighed by improper prejudice. See
*84
Hall v. State, 287 Ga. 755, 757(2), 699 S.E.2d 321 (2010)
(“[A]ny prejudice from the age of these prior incidents was
outweighed by the probative value of the evidence under the
particular facts of this case and the purpose for which the
similar transactions were offered.”).
[38] (b) The second similar transaction involved Ledford's
attempt to subdue a woman riding her bicycle on the Silver
Comet Trail in 2005. The trial court charged the jury that
the evidence was being admitted as possible evidence of “the
modus operandi, common plan and scheme in the crimes
charged in this case now on trial.” There is no merit to
Ledford's argument that the evidence used to prove the actual
occurrence of this similar transaction was inadequate. See
Gardner v. State, 273 Ga. 809, 810–811(2), 546 S.E.2d 490
(2001) (“The state is **254 only required to prove the
accused committed a similar transaction by a preponderance

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

15

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

of the evidence.”). The trial court properly admitted this
evidence, because it tended to confirm Ledford's role as the
perpetrator of the successful abduction of the victim in this
case under very similar circumstances. See Phillips v. State,
287 Ga. 560, 563–564(4), 697 S.E.2d 818 (2010).
[39] [40] 13. We reject Ledford's claim that the trial court
erred in several ways regarding the jury's viewing the crime
scene. The only objection Ledford raised at trial regarding
the scene view was based on the fact that the vegetation at
the scene had changed since the murder. However, we find
that the trial court did not abuse its discretion by allowing the
scene view over this objection, because the scene view might
have aided the jurors in their understanding of the evidence
despite the changes and because the jurors were able to see
the original condition of the scene in the photographs that
were in evidence. See
Gissendaner v. State, supra at 711–
712(8), 532 S.E.2d 677 (noting the trial court's discretion in
considering a request to have the jury view the crime scene).
Ledford's remaining complaints about the manner in which
the scene view was conducted are waived, because they were
not raised at trial. See Earnest v. State, 262 Ga. 494, 495(1),
422 S.E.2d 188 (1992).
[41] 14. In preparing the jury for its visit to the crime scene,
the trial judge stated, “I'll ask the Sheriff to go because in
the woods there are all kinds of critters, snakes and dogs and
cats and whatever that might be out there.” Ledford contends
that this statement constituted an impermissible comment on
the evidence by the trial court in violation of OCGA § 17–8–
57. Specifically, Ledford argues that the statement expressed
the opinion that the victim's body likely had suffered damage
from animals and insects prior to or after her death.

v. State, supra. See also

State v. Gardner, 286 Ga. 633,

634, 690 S.E.2d 164 (2010);
Paul v. State, 272 Ga. 845,
848–849(3), 537 S.E.2d 58 (2000) (applying the plain error
standard). Furthermore, we note that “a violation of OCGA
§ 17–8–57 will always constitute ‘plain error’....” (Emphasis
in original.)
State v. Gardner, supra at 634, 690 S.E.2d
164. Therefore, even where a defendant has failed to object or
move for a mistrial, “[o]n appeal, the issue is simply whether
there was such a violation.”
extent that

State v. Gardner, supra. To the

Whitner or any other cases suggest otherwise,

they are disapproved. In addition to
arguably include

Whitner, such cases

Walker v. State, 282 Ga. 774, 777 (4),

653 S.E.2d 439 (2007),

Pittman v. State, 273 Ga. 849, 851,

fn. 2, 546 S.E.2d 277 (2001), and
849(3), 537 S.E.2d 58.

Paul v. State, supra at

Although Ledford's claim that the trial court's comments
violated OCGA § 17–8–57 is reviewable as possible plain
error, the claim must fail because the trial court's statement
was not improper. In the hearing held outside the presence of
the jury, the trial judge noted that he had been confronted by
a menacing dog when he visited the crime scene, and defense
counsel noted that he had encountered a snake during his visit
to the scene. Particularly under these circumstances, we find
that the trial court's statement to the jury about animals and
insects at the crime scene was not an improper comment on
the evidence but, instead, was a proper exercise of the trial
court's duty to manage the trial proceedings and to ensure the

well-being of the jury. See Walker v. State, supra at 777(4),
653 S.E.2d 439 (noting that comments made in rendering
[42] [43] The State notes that Ledford made no objection rulings generally are not impermissible comments on **255
to the trial court's statement, and the State relies on the
the evidence);
Whitner v. State, supra at 744–745(3), 584
proposition that “the issue of whether OCGA § 17–8–57 was
S.E.2d 247 (noting that comments made in an “attempt to
violated is not reached unless an objection or motion for
regulate the proceedings” generally are not impermissible
mistrial is made on that ground.”
Whitner *85 v. State,
276 Ga. 742, 744–745(3), 584 S.E.2d 247 (2003). However,
we have explicitly disapproved similar language in other
opinions. Patel v. State, 282 Ga. 412, 413, fn. 2, 651 S.E.2d
55 (2007) (disapproving inconsistent language in other cases).
Even where a defendant has failed to object or move for a
mistrial in response to an alleged comment on the evidence
by the trial court in violation of OCGA § 17–8–57, this Court
nevertheless will examine the claim for plain error.

Patel

comments on the evidence). See also Hufstetler v. State,
274 Ga. 343, 345(2), 553 S.E.2d 801 (2001) (“Under these
circumstances, no reasonable juror would have interpreted the
trial court's remark as the expression of an opinion on any
issue to be decided in the case.”).
[44]
15. Ledford claims that the prosecutor argued
improperly by stating in a raised voice that the victim was
“kicked,” “stomped,” and “hit.” The content of this argument
was not improper, because it was based on a reasonable
inference from the evidence. See Payne v. State, 273 Ga. 317,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

16

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

318(4), 540 S.E.2d 191 (2001) (“In closing *86 argument,
counsel may draw any reasonable and legitimate inference
from the evidence.”). As to the volume at which the argument
was made, we find nothing in the record to indicate that the
trial court abused its discretion by finding no impropriety.
See
Morgan v. State, 267 Ga. 203–204(1), 476 S.E.2d 747
(1996) (noting that counsel are afforded wide latitude in their
mode of speech in closing arguments and that trial courts have
discretion in limiting closing arguments).
16. The trial court did not abuse its discretion in rejecting
Ledford's claim that the prosecutor argued improperly by
stating that the victim had intentionally left evidence for the
jury to consider by wounding Ledford.
supra.

Morgan v. State,

in “multiple places.” In response to Ledford's contention that
the verdict was thereby rendered ambiguous, the trial court
filed the first verdict form with the clerk, and provided the
jury with a new verdict form to complete. Even assuming that
there was any actual defect in the manner in which the first
verdict form was dated, we find no error in the trial court's
instructing the jury to complete a new verdict form *87 to
remove any minor “scrivener's error” involved.
Jones v.
State, 273 Ga. 231, 235(7), 539 S.E.2d 154 (2000).

Sentencing Phase Issues
20. There is no merit to Ledford's claim that victim impact

testimony is categorically unconstitutional. See
Braley v.
State, supra at 54(33), 572 S.E.2d 583. Ledford has withdrawn
[45] [46] 17. Ledford contends that the prosecutor violated his claim that a certain video recording constituted improper
the proscription against “golden rule” arguments by urging
victim impact evidence, conceding that the recording was not
the jury to think about the unpleasant way in which the
actually played for the jury at trial. The trial court did not err
victim had died. This argument was made as part of the
in admitting photographs of the victim in life. See
Lucas
prosecutor's argument that Ledford had acted with malice.
v. State, supra at 648(14), 555 S.E.2d 440.
“A ‘golden rule’ argument is one that, regardless of the
nomenclature used, asks the jurors to place themselves in
**256 [49] 21. Ledford argues that telephone calls he
a victim's position.”
Braithwaite v. State, 275 Ga. 884,
made from the jail were improperly admitted into evidence,
885(2)(b), 572 S.E.2d 612 (2002). We hold that this argument
citing only Smith v. State, 254 Ga.App. 107, 561 S.E.2d 232
was not improper.
(2002). Smith addresses the circumstances in which a person
gives sufficient implied consent to having his or her telephone
[47] 18. Ledford claims that the trial court erred by refusing conversations recorded to render the recording lawful under
to charge the jury on voluntary manslaughter. See OCGA
OCGA §§ 16–11–62 and 16–11–66 and, thus, admissible
§ 16–5–2(a) (providing that voluntary manslaughter occurs
under OCGA § 16–11–67. Because it appears that Ledford
when one “causes the death of another human being under
never objected to the recordings on these grounds, his claim
circumstances which would otherwise be murder and if he
is waived. See Earnest v. State, supra at 495(1), 422 S.E.2d
acts solely as the result of a sudden, violent, and irresistible
188. Furthermore, the record clearly supports the trial court's
passion resulting from serious provocation sufficient to excite
finding, made sua sponte, that Ledford consented to the
such passion in a reasonable person”). There was not even
recording of the telephone calls.
slight evidence to suggest that the victim was killed for any
reason other than the victim's having bitten Ledford's penis in
22. Ledford contends that the prosecutor's closing argument
self-defense as he attempted to commit aggravated sodomy
in the sentencing phase was improper for a number of reasons.
against her, facts which cannot form the basis for a charge
For the reasons set forth below, we find no error.
on voluntary manslaughter. See Beck v. State, 272 Ga. 863,
865(3), 535 S.E.2d 756 (2000) (noting that “when a victim
[50] (a) Contrary to Ledford's contention, the prosecutor's
is attacked by a defendant and the victim attempts to defend
argument that Ledford might present a future danger to others
himself or end the altercation, the victim's actions in doing so
was based on specific evidence supporting that argument,
cannot provide the serious provocation necessary to justify a
including evidence that Ledford had sexually harassed a
charge on voluntary manslaughter”).
pregnant jail guard and had made sexual remarks to a 14–
[48] 19. Our review of the record reveals that, in the trial
court's words, the jury had dated its guilt/innocence verdict

year–old girl over the telephone from the jail. Compare
Henry v. State, 278 Ga. 617, 619(1), 604 S.E.2d 826 (2004)

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

17

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

(“An argument that a death sentence is necessary to prevent
future dangerous behavior by the defendant in prison must
be based on evidence suggesting that the defendant will be
dangerous in prison.”).
[51] (b) The prosecutor's argument that Ledford had shown
a lack of empathy by stating a desire to make money from his
crimes was based on a recorded telephone call Ledford had
made from the jail. This argument was not improper, because
it was a based on a reasonable inference from the evidence.
See Payne v. State, supra at 318(4), 540 S.E.2d 191.
(c) There is no merit to Ledford's contention that it was
improper for the prosecutor to argue that, based on his actions,
Ledford had shown that “he believes in the death penalty.”
See *88
Crowe v. State, 265 Ga. 582, 592(18)(c), 458
S.E.2d 799 (1995).
[52] (d) Ledford contends that the following argument by the
prosecutor was improper: “You haven't heard any evidence
of his taking responsibility....” The argument, in context,
specifically referred to matters actually in evidence and made
no reference to Ledford's decision not to testify. We conclude
that the argument was not improper. See
Hammond v.
State, 264 Ga. 879, 886(8)(b), 452 S.E.2d 745 (1995) (“We
do not read the prosecutor's remark concerning Hammond's
lack of remorse as a comment on Hammond's failure to testify
during the sentencing phase.”).

Sentence Review
23. Upon our review of the record, including the portion of
the State's closing argument in the guilt/innocence phase to
which Ledford has drawn our attention, we conclude that the
sentence of death in this case was not imposed under the
influence of passion, prejudice, or any other arbitrary factor.
See

OCGA § 17–10–35(c)(1).

24. This Court is required by statute to review the sufficiency
of the evidence supporting each of the statutory aggravating
circumstances in death penalty cases.
35(c)(2).

OCGA § 17–10–

The jury found that the murder was committed while Ledford
was engaged in the commission of aggravated battery. See

murder was outrageously vile, horrible, or inhuman in that it
involved torture, depravity of mind, and aggravated battery
to the victim. See

OCGA § 17–10–30(b)(7). In response

to
Godfrey v. Georgia, 446 U.S. 420, 100 S.Ct. 1759, 64
L.Ed.2d 398 (1980), this Court set forth certain criteria which
the evidence at trial must satisfy for the (b)(7) aggravating
circumstance to be constitutionally applicable, including the
following:
Under the plain meaning of the statute, not only must
the murder be outrageously or wantonly vile, horrible or
inhuman, but in addition, the facts of the case must show
either an aggravated battery to the **257 victim, torture
of the victim, or depravity of mind of the defendant as
hereinafter explained. An aggravated battery occurs when
“(a) person ... maliciously causes bodily harm to another
by depriving him [or her] of a member of his [or her] body,
or by rendering a member of his [or her] body useless,
or by seriously disfiguring his [or her] body or a member
thereof.” [ OCGA § 16–5–24(a).] In order to constitute
aggravated battery, the bodily harm to the victim must
occur before death. [Cit.] Torture occurs when the victim
is subjected to serious *89 physical abuse before death.
[Cit.] Serious sexual abuse may be found to constitute
serious physical abuse. [Cit.] Torture also occurs when the
victim is subjected to an aggravated battery as hereinabove
defined.... Insofar as aggravated battery and torture are
concerned, only facts occurring prior to death may be
considered. The death of a victim who dies instantaneously
with little or no forewarning does not involve torture
or aggravated battery ( [cits.] ); i.e., only facts showing
aggravated battery or torture (as hereinabove defined),
which are separate from the act causing instantaneous
death, will support a finding of torture or aggravated
battery. The instantaneous death of a victim as a result of
being killed by a shotgun, although the scene of death be
gruesome (no other facts appearing), does not constitute
torture, aggravated battery or depravity of mind. ( [Cit.] )
Where only facts occurring prior to death are relied upon
to support a finding of torture or aggravated battery, the
fact that the victim was tortured or was the victim of an
aggravated battery will also support a finding of depravity
of mind of the defendant; i.e., a defendant who tortures
the victim or subjects the victim to an aggravated battery
before killing the victim can be found to have a depraved
mind.

OCGA § 17–10–30(b)(2). The jury further found that the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

18

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

Hance v. State, 245 Ga. 856, 861–862(3), 268 S.E.2d
339 (1980). See also West v. State, 252 Ga. 156, 161–162,
313 S.E.2d 67 (1984)(Appendix)(providing the pattern jury
charge on torture to be given upon the defendant's request);
Krier v. State, 249 Ga. 80, 88–89(7), 287 S.E.2d 531
(1982);
Patrick v. State, 247 Ga. 168, 169, 274 S.E.2d
570 (1981). With respect to an aggravated battery “alleged
to have been committed upon the person who is also the
murder victim, the same limitations ... apply to the § (b)(2)
circumstance as to the § (b)(7) circumstance.” Davis v. State,
255 Ga. 588, 594(3)(c), 340 S.E.2d 862 (1986).

(1987);

**258 Baxter v. State, 254 Ga. 538, 549(20)

(b), 331 S.E.2d 561 (1985);

Conner v. State, 251 Ga. 113,

116(3), 303 S.E.2d 266 (1983);
Krier v. State, supra at
89(7), 287 S.E.2d 531; Cape v. State, 246 Ga. 520, 528–
529(13), 272 S.E.2d 487 (1980).
The jury also found two additional statutory aggravating
circumstances involving Ledford's prior conviction for rape
and his having committed the murder during the commission

of a kidnapping with bodily injury. See
OCGA § 17–10–
30(b)(1, 2). The evidence presented at Ledford's trial was
sufficient to authorize a rational trier of fact to find beyond a
[53]
[54]
[55] As we noted above in our review of reasonable doubt the existence of these statutory aggravating
the sufficiency of the evidence to support the verdicts
circumstances.
Ring v. Arizona, 536 U.S. 584, 122 S.Ct.
rendered by the jury in the guilt/innocence phase, although
2428, 153 L.Ed.2d 556 (2002);
Jackson v. Virginia, supra;
the evidence showed that the acts constituting the three
OCGA § 17–10–35(c)(2).
aggravated batteries were the same as the acts constituting the
murder, the separate aggravated battery verdicts are supported
[56] 25. Considering both the crime and the defendant
by the evidence that the victim's death was not instantaneous.
in this case, we find that the death sentence is not
For the same reason, the jury was authorized to find the
disproportionate punishment within the meaning of Georgia
statutory aggravating circumstance set forth in
OCGA §
law. See
OCGA § 17–10–35(c)(3);
Gissendaner v.
17–10–30(b)(2) and the aggravated battery portion of the
State, supra at 716–717(19)(a), 532 S.E.2d 677 (noting
(b)(7) circumstance. See Hall v. Terrell, 285 Ga. 448, 452–
that this Court's statutorily-mandated proportionality review
453(II)(C), 679 S.E.2d 17 (2009); Perkins v. State, 269 Ga.
concerns whether a particular death sentence “is excessive
791, 796(6), 505 S.E.2d 16 (1998);
Hance v. State, supra.
per se” or is “substantially out of line” for the type of crime
Likewise, the jury's finding of torture was supported by the
and defendant involved). This finding obviously takes into
evidence that the *90 victim's death was not instantaneous,
consideration the shocking details of the murder in this case.
but was preceded by serious sexual abuse, as well as the
This finding also takes into consideration Ledford's long
serious physical abuse which constituted the aggravated
history of criminal acts against numerous women, including a
batteries. See Loyd v. State, 288 Ga. 481, 489(4)(b), 705
rape, several apparent attempted rapes, and sexually-deviant
S.E.2d 616 (2011); Hall v. Terrell, supra; Jones v. State, 279
behavior directed at women and his own 14–year–old relative.
Ga. 854, 860(7)(b), 622 S.E.2d 1 (2005);
Hance v. State,
The cases cited in the Appendix support our finding in that
supra. The authorized findings of aggravated battery and
each involves a jury's willingness to impose a death sentence
torture also support a finding of depravity of mind. See Loyd v.
where the defendant has a prior conviction for a capital
felony, where the defendant committed murder during both a
State, supra; Perkins v. State, supra;
Hance v. State, supra
sexual assault and a *91 kidnapping, or where the murder
at 862(3), 268 S.E.2d 339. Furthermore, the shocking and
involved aggravated battery, torture, or depravity of mind. See
vicious nature of the victim's murder by stomping and kicking
authorized the jury to find that the murder was outrageously
or wantonly vile, horrible, or inhuman. Accordingly, we find
that the evidence was sufficient to support the jury's findings
beyond a reasonable doubt of both the (b)(2) and (b)(7)
statutory aggravating circumstances. See
Taylor v. State,
261 Ga. 287, 297(13)(c), 404 S.E.2d 255 (1991); Patillo
v. State, 258 Ga. 255, 262–263(6), 368 S.E.2d 493 (1988);
Jefferson v. State, 256 Ga. 821, 828(9), 353 S.E.2d 468

OCGA § 17–10–35(e).
Judgments affirmed in part and vacated in part.

All the Justices concur.
APPENDIX.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

19

Ledford v. State, 289 Ga. 70 (2011)
709 S.E.2d 239, 11 FCDR 934

Loyd v. State, 288 Ga. 481, 705 S.E.2d 616 (2011);

Tate v.

State, 287 Ga. 364, 695 S.E.2d 591 (2010); Rivera v. State,
282 Ga. 355, 647 S.E.2d 70 (2007); Williams v. State, 281
Ga. 87, 635 S.E.2d 146 (2006);
Nance v. State, 280 Ga.
125, 623 S.E.2d 470 (2005); Lewis v. State, 279 Ga. 756, 620
S.E.2d 778 (2005); Riley v. State, 278 Ga. 677, 604 S.E.2d
488 (2004);

Franks v. State, 278 Ga. 246, 599 S.E.2d

134 (2004);

Sealey v. State, 277 Ga. 617, 593 S.E.2d 335

(2004);

Sallie v. State, 276 Ga. 506, 578 S.E.2d 444 (2003);

Braley v. State, 276 Ga. 47, 572 S.E.2d 583 (2002); Terrell
v. State, 276 Ga. 34, 572 S.E.2d 595 (2002); Arevalo v. State,
275 Ga. 392, 567 S.E.2d 303 (2002);

Lance v. State, 275

Ga. 11, 560 S.E.2d 663 (2002);

Presnell v. State, 274 Ga.

246, 551 S.E.2d 723 (2001);

Colwell v. State, 273 Ga.

634, 544 S.E.2d 120 (2001);

Jones v. State, 273 Ga. 231,

539 S.E.2d 154 (2000);
Heidler v. State, 273 Ga. 54, 537
S.E.2d 44 (2000); Drane v. State, 271 Ga. 849, 523 S.E.2d 301
(1999); Pace v. State, 271 Ga. 829, 524 S.E.2d 490 (1999);
Johnson v. State, 271 Ga. 375, 519 S.E.2d 221 (1999);

Lee

v. State, 270 Ga. 798, 514 S.E.2d 1 (1999);
Pruitt v. State,
270 Ga. 745, 514 S.E.2d 639 (1999); Pye v. State, 269 Ga.
779, 505 S.E.2d 4 (1998);
S.E.2d 219 (1998);

Mize v. State, 269 Ga. 646, 501

Raulerson v. State, 268 Ga. 623, 491

S.E.2d 791 (1997);
Waldrip v. State, 267 Ga. 739, 482
S.E.2d 299 (1997); Jones v. State, 267 Ga. 592, 481 S.E.2d
821 (1997);

Carr v. State, 267 Ga. 547, 480 S.E.2d 583

(1997);
Davis v. State, 263 Ga. 5, 426 S.E.2d 844 (1993);
Tharpe v. State, 262 Ga. 110, 416 S.E.2d 78 (1992).
All Citations
289 Ga. 70, 709 S.E.2d 239, 11 FCDR 934

Footnotes
*

Ledford committed the crimes on July 25, 2006. He was originally indicted by a Paulding County grand jury on
September 28, 2006. On October 26, 2006, he was re-indicted on the same charges, which were one count
of malice murder, two counts of felony murder, three counts of aggravated battery, one count of aggravated
sodomy, two counts of kidnapping with bodily injury, and one count of aggravated assault. On November 3,
2006, the State filed written notice of its intent to seek the death penalty. Jury selection began on April 13,
2009. On May 18, 2009, the jury found Ledford guilty of all counts and, on May 22, 2009, recommended a
death sentence for the murder. On that same day, the trial court entered the judgments, imposed a death
sentence for the malice murder, and properly treated the felony murder convictions as mere surplusage. See
Malcolm v. State, 263 Ga. 369, 371–372(4), 434 S.E.2d 479 (1993); OCGA § 16–1–7(a). The trial court
also imposed the following terms of imprisonment, each to be consecutive to one another and to the death
sentence: 20 years for each of the three aggravated batteries; life without parole for the aggravated sodomy;
life without parole for the first count of kidnapping with bodily injury; and 20 years for the aggravated assault.
See
OCGA § 17–10–7(b)(2) (providing for the sentencing of repeat offenders). The trial court properly
treated the conviction on the second count of kidnapping with bodily injury as mere surplusage. Id. Ledford
filed a motion for new trial on June 10, 2009, which he amended on September 30, 2009, and which the trial
court denied on May 25, 2010. After obtaining a 30–day extension for filing, Ledford filed a notice of appeal
on July 23, 2010. This appeal was docketed on July 27, 2010, for the September 2010 term of this Court,
and the case was orally argued on January 24, 2011.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

20

APPENDIX 7

